<html>
<title> - DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                        WEDNESDAY, MARCH 3, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:37 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Mike DeWine (chairman) presiding.
    Present: Senators DeWine and Landrieu.

                          DISTRICT OF COLUMBIA

             Court Services and Offender Supervision Agency

STATEMENT OF PAUL A. QUANDER, JR., DIRECTOR
ACCOMPANIED BY:
        PAUL BRENNAN, COMMUNITY SUPERVISION OFFICER
        REVEREND DONALD ISAAC, EXECUTIVE DIRECTOR, EAST OF THE RIVER 
            CLERGY-POLICE-COMMUNITY PARTNERSHIP

               OPENING STATEMENT OF SENATOR MIKE DE WINE

    Senator DeWine. Good morning. Today we are reviewing the 
fiscal year 2005 budget request for the District of Columbia's 
Court Services and Offender Supervision Agency and the District 
of Columbia's Public Defender Service.
    Under the National Capital Revitalization and Self-
Government Improvement Act of 1997, the Federal Government is 
required to finance both of these independent agencies. First, 
we will hear from Paul Quander, Director of CSOSA. His agency 
is responsible for supervising adults who are on pretrial 
release, probation, and/or parole supervision in the District 
of Columbia.
    The President's fiscal year 2005 Budget request is $187.5 
million for CSOSA, an increase of $19 million or 12 percent 
over the fiscal year 2004 enacted level. We would like to hear 
how these additional resources would be used to further the 
agency's mission and goals. Last year, this subcommittee 
appropriated funds above and beyond the President's request to 
enable CSOSA to reduce its caseload ratio for sex offenders 
from 36 to 1 down to 25 to 1; for domestic violence offenders, 
from 42 to 25 to 1; and for offenders with mental health 
problems from 47 to 1 to 25 to 1.
    Also, this subcommittee provided additional resources to 
allow CSOSA to purchase GPS anklet monitoring equipment to 
ensure that parolees are not going to places like schools, 
libraries, where they are prohibited from frequenting. I am 
concerned, however, that the fiscal year 2005 budget request 
does not include the funds to continue these important efforts, 
and this is something that this subcommittee will have to deal 
with.
    After Mr. Quander testifies, we will then be joined by the 
Reverend Donald Isaac who will discuss the District's faith/
community partnership with CSOSA which aims to reconnect 
offenders with their communities before returning home from 
prison. I am interested to see how CSOSA is using video 
conferences to allow families and mentors here in the District 
to stay in touch with their loved ones who are incarcerated 5 
hours away down in North Carolina.
    Mr. Ronald Sullivan will then testify, during the second 
panel, to present the Public Defender Service budget. PDS is an 
independent Federal agency that provides legal representation 
to indigent adults and children facing criminal charges in the 
District. PDS also provides legal representation for people in 
the mental health system, as well as the children in the 
delinquency system, including those who have special education 
needs due to learning disabilities. The President's budget 
request for PDS is $29.8 million which is an increase of $3.7 
million over fiscal year 2004 enacted level.
    As usual, witnesses will be limited to 5 minutes, 5 minutes 
for their oral remarks in order to leave time for questions and 
answers. Copies of all the written statements will be placed in 
the record in their entirety.
    We would also like to recognize, of course, Eleanor Holmes 
Norton, who is here. Eleanor is back there somewhere.
    There she is. Thank you for joining us, again.
    We always welcome her here.
    Senator Landrieu, for an opening statement or comments.

                 STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Thank you, Mr. Chairman. I will be brief, 
but I do want to make just a few comments and welcome to our 
panelists that are here with us. And, Mr. Quander, it was very 
nice meeting with you, even just briefly, yesterday.
    But I wanted to just recommit myself to working as a 
partner with Chairman DeWine. We have worked very well chairing 
and serving as ranking member alternately over the years of 
this committee as we work with the Mayor and the leadership to 
strengthen the District of Columbia in any number of ways: 
through improving our schools and education; through supporting 
and revitalizing the family court and child welfare system; and 
through working with leaders, like yourself, to bring more 
public safety into strengthening our public securities system.
    The Mayor, I think, is absolutely correct when he states 
that the goal of this District, as well as many cities 
throughout the Nation, is to stabilize and encourage people to 
stay in the District or to move back to the District, and there 
are many aspects that go into a person's decision or family's 
decision to do that. Public safety is one of them. So we thank 
you for the work and the progress that we are making in that 
area.
    The mission of the agency that you supervise is extremely 
important to maintaining and improving public safety. There are 
over 16,000 offenders and 8,000 defendants at any given time. I 
understand, from your prepared statement, that more inmates are 
transitioning directly from prison to the community with no 
halfway house options, which is a real challenge and something 
I hope we can address and speak about this morning.
    In addition, I want to make note of the great progress made 
during the course of the brief existence of this agency in 
terms of the caseload reductions that our committee has helped 
to work with you to make true. Also, the number of parolees 
rearrested on new drug charges has dropped from 27 percent to 
18 percent, which is, I think, a significant drop and a real 
measure of some success in certain areas.
    Although we do have, Mr. Chairman, some effective drug 
testing programs, I think our resources are still scarce to 
provide the kind of extensive and comprehensive drug treatment 
that is necessary, not just in this District and City, but in 
cities throughout the United States.
    So, I just want to commend CSOSA for reducing the caseload. 
I want to work with you, Mr. Chairman, and make sure we can 
continue to reduce that caseload. To try our very best to work 
on strategies to reduce the turnover rate, which is very 
important, to make sure that these cases are prosecuted and 
processed in a timely manner just for the rights of the victim, 
as well as for the rights of the accused. I have a more lengthy 
statement, but that will suffice for the time being and I look 
forward to the testimony and the questions. Thank you.

               PREPARED STATEMENT OF SENATOR PAUL STRAUSS

    Senator DeWine. Senator Strauss has submitted a statement 
which will also be included in the record.
    [The statement follows:]
                   Statement of Senator Paul Strauss
    Chairman DeWine, Ranking Member Landrieu, and others on this 
subcommittee, as the elected United States Senator for the District of 
Columbia, and an attorney who practices in our local courts, I would 
like to state for the record that I fully support the fiscal year 2005 
Budget Request for the District of Columbia Court Services Offender 
Supervision Agency and the Public Defender Services, I would like to 
thank you for holding this hearing this morning. On behalf of my 
constituents, I appreciate your consideration of the needs of the 
people in the District of Columbia. It is vital that these two agencies 
be fully funded in the amount asked for today. As the elected Senator 
from the District of Columbia, I myself cannot vote on this 
appropriation. Therefore, I am limited to merely asking you to support 
the requests.
    Due to our lack of self-determination, we are unable to provide or 
fund certain government services on a local level. Consequently, the 
Federal Government has sole discretion as to the funding levels for 
these agencies. I do not intend to discuss the issue of self-
sufficiency and budget-autonomy here today. However, as long as 
Congress continues to control these institutions, which should be 
operated by the District, Congress has an obligation to fully fund the 
budget requests of the agencies present.
    The sixth amendment to the Constitution guarantees the accused to 
have ``. . . assistance of counsel for his defense.'' Public Defender 
Services (PDS) satisfies this mandate by playing a vital role in our 
system of due process. In order to uphold the Constitutional rights of 
indigent Defendants, it is crucial that PDS's financial requirements 
are met. The District of Columbia's Public Defender Services have 
demonstrated an outstanding record of performance. In their 30 years of 
existence, PDS has set a national standard of excellence with its 
innovative approaches that are applied by some of the most talented 
lawyers in the country. They are an agency that this Congress, this 
subcommittee, and the citizens of the District of Columbia should be 
proud of.
    The other organization present here today also provides a necessary 
service to the people of Washington, DC. The Court Services and 
Offender Supervision Agency (CSOSA) encompasses multiple stages of the 
legal process. Among them is the Pretrial services Agency (PSA), which 
Supervises defendants pending trial and/or sentencing. Additionally, 
the Community Supervision Program (CSP) manages the cases of offenders 
on probation, parole, or supervised release. Overall, CSOSA has 
developed a pragmatic approach to both administering the cases of the 
accused, and in reintegrating past criminal offenders into society. 
Furthermore, it offers valuable services to victims and provides 
separate services for women, children, and those in need of 
professional treatment. The Assessment and Orientation Center (AOC) 
clinically treats both defendants and offenders who are afflicted with 
drug addictions. With an 80 percent completion rate, and a decreased 
arrest rate among graduates by 75 percent, AOC has an outstanding 
record of success. However, without sufficient funding AOC may have to 
revert to a ``single treatment approach'', which is known to be much 
less effective than a multifaceted intervention. Furthermore CSOSA has 
been in the process of expanding their operation by hiring additional 
supervision officers, and enhancing their global Positioning System, 
which monitors high-risk domestic violence and sex offenders. Moreover, 
all of the programs of CSOSA ensure the safety and well being of the 
citizens of the District of Columbia. It is therefore imperative that 
their budget request is granted so that they can continue to do so.
    In conclusion, I would like to thank the subcommittee for holding 
this important hearing. I ask that you approve the budget proposals 
submitted today. I commend Senators DeWine and Landrieu for their 
continued interest in the fate of our Nation's Capital. Their valuable 
support has sustained the functioning of our vital institutions. I 
would also like to applaud the witnesses from both agencies, who have 
constructed compelling testimony in justifying their budget requests. 
Finally, I would like to thank Regina Szymanska and Brian Rauer for 
their help in preparing this statement. I look forward to further 
hearings on this topic, and I'm happy to respond to any requests for 
additional information.

    Senator DeWine. Well, I think, this is going to be a very 
interesting hearing.
    Our first witness is the Honorable Paul Quander, Jr., who 
is the Director of the Court Services and Offenders Supervision 
Agency, who was nominated by President George Bush on October 
18, 2001 and confirmed by the Senate. Prior to his appointment, 
he served as Assistant United States Attorney in the District 
of Columbia and as Deputy Director for the District of Columbia 
Department of Corrections. We welcome him back.
    And thank you very much, and you can proceed with a 
statement and then we will go to the videotape, then.

                   STATEMENT OF PAUL A. QUANDER, JR.

    Mr. Quander. Thank you, and good morning.
    Mr. Chairman and members of the subcommittee, thank you for 
the opportunity to appear today in support of the Court 
Services and Offender Supervision Agency's fiscal year 2005 
budget request.
    As you know, CSOSA's budget request includes the Pretrial 
Services Agency which, although a component of CSOSA, operates 
independently with a separate budget. The District of Columbia 
Public Defender Service also transmits its budget with CSOSA 
but is not a part of CSOSA.
    CSOSA's fiscal year 2005 budget request totals 
$187,490,000, an increase of 12 percent over fiscal year 2004. 
Of this, $118,343,000 is for the Community Supervision Program; 
$39,314,000 for the Pretrial Services Agency; and $29,833,000 
for the Public Defender Service.
    At any given time, the Community Supervision Program 
supervises approximately 14,000 offenders on probation, parole, 
or supervised release. The Pretrial Services Agency supervises 
approximately 7,000 defendants pending trial and/or sentencing.
    The Community Supervision Program's proposed budget 
represents a 13 percent increase over fiscal year 2004 funding. 
Of the $14 million increase, approximately $8.9 million is 
allocated to one new program initiative. This increase funds 
staffing and operating expenses for the first year of 
operations for our Reentry and Sanctions Center.
    In fiscal year 2002, CSOSA received $13 million in no-year 
funds to renovate Karrick Hall, an eight-story building on the 
grounds of D.C. General Hospital. This facility housed CSOSA's 
21-bed Assessment and Orientation Center since 1996. The 
Assessment and Orientation Center provides 30 days of intensive 
clinical assessment, treatment readiness, and reintegration 
programming to high-risk defendants and offenders with serious 
drug abuse problems. Since its inception, over 80 percent of 
participants have completed the program, and arrest rates among 
program graduates decreased nearly 75 percent. Based on its 
demonstrated effectiveness, CSOSA will expand this program as 
the focal point of a Reentry and Sanctions Center.
    At present, the Assessment and Orientation Center treats 
approximately 250 individuals per year. The 108-bed Reentry and 
Sanctions Center, once completed, will provide approximately 
1,200 program slots annually.
    This expansion will allow us to make the program available 
to women, develop a dedicated mental health unit, and open 
three additional men's units. In addition, the center will 
provide short-term residential interventions as a sanction for 
individuals who relapse.
    CSOSA's program model emphasizes accountability. Our 
flexible system of intermediate sanctions enables us to balance 
our external controls with the offender's developing sense of 
internal self-control. We know, however, that external 
authority alone is not sufficient to increase the offender's 
sense of responsibility to self, family, and community. For 
that, he or she needs to establish permanent, personal 
connections to positive individuals and institutions. These 
connections are essential to long-term change.
    Supervision occupies, at most, a few years of a person's 
life. During that time, the offender must develop the personal 
resources that will permanently support him or her.
    In the District of Columbia, as elsewhere, faith 
institutions are a permanent source of guidance, fellowship, 
inspiration, and assistance. These institutions have long 
histories of helping the less fortunate and encouraging 
personal change. Therefore, faith institutions are a natural 
point at which to connect returning offenders with their 
communities.
    In 2001, CSOSA and the City's clergy forged a partnership 
to develop mechanisms through which faith institutions could 
contribute to successful reentry. We chose mentoring as our 
first initiative to emphasize the value of personal 
relationships in this work. From the initial call to action in 
January 2002, to last month's Reentry Worship events, we have 
raised awareness and involved over 200 volunteers in our 
mentoring program.
    Last year, we expanded the mentoring program to reach 
inmates at the Rivers Correctional Institution in North 
Carolina, which is a Bureau of Prisons contract facility 
housing over 1,000 D.C. offenders. Reverend Donald Isaac, the 
Chairman of the CSOSA Faith/Community Partnership Advisory 
Council will share the clergy's perspective on this initiative 
with the subcommittee.
    As the faith initiative matures, we hope to demonstrate the 
public safety benefits of linking returning offenders with the 
community's natural support systems. We are in the initial 
stages of evaluating the program, but we have already seen the 
difference this intervention can make in individual lives.
    This has been a year of great promise for CSOSA. We have 
continued to refine the tools we use to supervise offenders. 
This spring, we will implement an expanded automated screening 
instrument that combines risk scoring and needs assessment to 
generate a prescriptive supervision plan for each offender. We 
recently expanded our case management system to include 
automated treatment tracking. With the additional fiscal year 
2004 funding supported by the subcommittee, CSP, Community 
Supervision Program, has begun hiring additional supervision 
officers to lower high-risk offender caseloads and expand our 
use of Global Positioning System monitoring on high-risk 
domestic violence and sex offenders.
    The Pretrial Services Agency has made significant progress 
with implementation of a new program funded last year, the 
Mental Health Supervision Unit. This new unit provides 
comprehensive mental health assessments and links defendants 
with a range of mental health services provided by the City's 
Department of Mental Health.
    During fiscal year 2003, Pretrial Services Agency also 
provided strong support to the D.C. Superior Court's 
implementation of its new East of the River Community Court. 
The shift from a traditional case processing orientation to a 
problem-solving system of supervision has been very labor-
intensive for PSA, and the agency continues to explore ways to 
realign existing staff to lower general supervision caseloads.
    Community supervision plays a vital role in keeping our 
city safe. It is the bridge that offenders must cross to move 
from bad choices to a better life. It is our job to make it 
both difficult and undesirable for the offender to reverse 
direction and travel backwards. Our supervision officers have 
an equal responsibility to encourage progress and address non-
compliance and relapse.
    Every time I visit one of our field units, I am reminded 
how difficult their job is. But every time I hear that an 
offender got a promotion at work or completed treatment, I am 
reminded how rewarding it can be. As more partners join us in 
this work, I believe our forward momentum will carry more and 
more offenders to the long-term success of living as 
productive, crime- and drug-free citizens.

                           PREPARED STATEMENT

    We thank the subcommittee for its continued interest in, 
and support of, our initiatives. I will be pleased to answer 
any question you may have at this time.
    [The statement follows:]
               Prepared Statement of Paul A. Quander, Jr.
    Mr. Chairman and Members of the subcommittee, thank you for the 
opportunity to appear today in support of the Court Services and 
Offender Supervision Agency's fiscal year 2005 budget request. As you 
know, CSOSA's budget request includes the Pretrial Services Agency 
(PSA), which, although a component of CSOSA, operates independently 
with a separate budget. The District of Columbia Public Defender 
Service also transmits its budget with CSOSA's but is not part of 
CSOSA.
    CSOSA's fiscal year 2005 budget request totals $187,490,000, an 
increase of 12 percent over fiscal year 2004. Of this, $118,343,000 is 
for the Community Supervision Program (CSP), $39,314,000 for PSA, and 
$29,833,000 for the Public Defender Service.
    At any given time, CSP supervises approximately 14,000 offenders on 
probation, parole, or supervised release. PSA supervises approximately 
7,000 defendants pending trial and/or sentencing.
    CSP's proposed budget represents a 13 percent increase over fiscal 
year 2004 funding. Of the $14 million increase, approximately $8.9 
million is allocated to one new program initiative. The increase funds 
staffing and operating expenses for the first year of operation for our 
Reentry and Sanctions Center.
    In fiscal year 2002, CSOSA received $13 million in no-year funds to 
renovate Karrick Hall, an eight-story building on the grounds of D.C. 
General Hospital. The facility has housed CSOSA's 21-bed Assessment and 
Orientation Center, or AOC, since 1996. The AOC provides 30 days of 
intensive clinical assessment, treatment readiness, and reintegration 
programming to high-risk defendants and offenders with serious drug 
abuse problems. The program has been extremely successful. Since its 
inception, over 80 percent of participants have completed the program, 
and arrest rates among program graduates were found to be nearly 75 
percent lower than among offenders who did not receive this 
programming. Based on its demonstrated effectiveness, CSOSA decided to 
make this program the focal point of a Reentry and Sanctions Center 
that would serve a larger population. At present, the AOC treats 
approximately 250 individuals per year; the 108-bed Reentry and 
Sanctions Center will provide approximately 1,200 program slots 
annually.
    This expansion will allow us to make programming based on the AOC 
model available to women, develop a dedicated unit for individuals with 
serious mental health issues, and open three additional units for male 
defendants and offenders. This type of intensive, structured, 
sanctions-based treatment is clearly effective, and we are very pleased 
that we will soon be able to expand its use.
    We are also pleased that we will not need to interrupt the program 
during the renovations. We have procured an interim facility in 
Northwest Washington and are now completing the transfer of operations. 
The new space also allows us to increase overall capacity to 27 beds 
during the renovation period.
    Developing the Reentry and Sanctions Center demonstrated the value 
and effectiveness of our community partnerships. We worked closely with 
the city during the Reservation 13 master planning process to identify 
the best location for the Center at this site. Once the decision to 
renovate Karrick Hall was finalized, we worked cooperatively with the 
city and neighborhood associations on our short-term occupancy of the 
interim facility. At each stage of the process, we kept our partners 
and neighbors informed of our intentions. The community has continually 
supported our presence and recognized our contribution to public 
safety.
    CSOSA's Reentry and Sanctions Center will expand the range of 
program options available to our supervision officers. Most treatment 
professionals believe that relapse is part of recovery. A single 
treatment experience is rarely sufficient to enable long-term substance 
abusers to overcome their addiction. Most often, the road to recovery 
is fraught with obstacles and detours. The Reentry and Sanctions Center 
will provide not only the initial 30-day preparatory program, which 
increases the likelihood that subsequent treatment will be effective, 
but also short-term residential sanctions for individuals who relapse.
    CSOSA's program model emphasizes accountability. Our flexible 
system of intermediate sanctions enables us to balance our external 
controls with the offender's developing sense of internal 
accountability. We know, however, that external authority alone is not 
sufficient to increase the offender's sense of responsibility to self, 
family, and community. For that, he or she needs to establish 
permanent, personal connections to positive individuals and 
institutions. These connections are essential to long-term change. 
Supervision occupies at most a few years of a person's life. During 
that time, the offender must develop the personal resources that will 
support a changed lifestyle.
    In the District of Columbia, as elsewhere, faith institutions are a 
permanent source of guidance, fellowship, inspiration, and assistance. 
These institutions have long histories of helping the less fortunate 
and encouraging personal change. Therefore, faith institutions are a 
natural point at which to nurture connection between returning 
offenders and their communities.
    In 2001, CSOSA and the city's clergy forged a partnership to raise 
awareness of the offenders' needs and develop mechanisms through which 
faith institutions could help to meet them. We chose mentoring as our 
first initiative to emphasize the value of personal relationships in 
this work. From the initial call to action in January 2002, to this 
year's Reentry Worship events early last month, we have raised 
awareness and involved over 200 volunteers in our mentoring program. 
Rev. Donald Isaac, the Chairman of the CSOSA Faith/Community 
Partnership Advisory Council, will share the clergy's perspective on 
this initiative with the subcommittee.
    Last year, we expanded the mentoring program to reach inmates at 
the Rivers Correctional Institution in North Carolina, which is a 
Bureau of Prisons contract facility housing over 1,000 D.C. offenders. 
We will show a short video about the mentoring program and a clip of 
our video conference mentoring with Rivers at the conclusion of Rev. 
Isaac's statement.
    As the faith initiative matures, we hope to demonstrate the public 
safety benefits of linking returning offenders with the community's 
natural support systems. We are in the initial stages of evaluating the 
program, but we have already seen the difference this intervention can 
make in individual lives. Mentors have helped their mentees get and 
keep jobs, maintain abstinence, find housing, and heal family 
relationships. A mentor cannot and should not replace the community 
supervision officer, but the mentor can help the offender to establish 
relationships that last far beyond the supervision term.
    Beyond mentoring, the faith initiative makes available to offenders 
the support services offered by many churches and mosques. These 
services include job training programs, food and clothing banks, 
counseling and support groups, and family services. Through referral to 
faith-based services, CSOSA expands the range of support available to 
offenders.
    This has been a year of great promise for CSOSA. We have continued 
to refine the tools we use to supervise offenders. This spring, we will 
implement an expanded automated screening instrument that combines risk 
scoring and needs assessment to generate a prescriptive supervision 
plan for each offender. We recently expanded our case management system 
to include automated treatment tracking. With the additional fiscal 
year 2004 funding supported by the subcommittee, CSP has begun hiring 
additional supervision officers to lower high-risk offender caseloads 
and expand our use of Global Positioning System monitoring on high-risk 
domestic violence and sex offenders. CSP and PSA also processed almost 
4,000 treatment placements.
    PSA has made significant progress with implementation of a new 
program funded last year, the mental health supervision unit. This new 
unit provides comprehensive mental health assessments and links 
defendants with a range of mental health services provided by the 
city's Department of Mental Health. We expect that this will greatly 
improve our ability to supervise defendants who manifest significant 
programmatic needs.
    During fiscal year 2003, PSA also provided strong support to the 
D.C. Superior Court's implementation of its new East of the River 
Community Court. The shift from a traditional case processing 
orientation to a problem-solving system of supervision has been very 
labor-intensive for PSA, and the Agency continues to explore ways to 
realign existing staff to lower general supervision caseloads.
    Community supervision plays a vital role in keeping our city safe. 
It is the bridge that offenders must cross to move from bad choices to 
a better life. It is our job to make it both difficult and undesirable 
for the offender to reverse direction and travel backwards. Our 
supervision officers have an equal responsibility to encourage progress 
and address non-compliance and relapse. Every time I visit one of our 
field units, I am reminded how difficult their job is. But every time I 
hear that an offender got a promotion or completed treatment, I am 
reminded how rewarding it can be. As more partners join us in this 
work, I believe our forward momentum will carry more and more offenders 
to the long-term success of living as productive, crime- and drug-free 
citizens.
    We thank the subcommittee for its continued interest in, and 
support of, our initiatives. I will be pleased to answer any questions 
you may have at this time.

    Senator DeWine. Great. Thank you very much.
    You have--why don't we go to your presentation?
    Mr. Quander. Thank you, and with the----
    Senator DeWine. Then we will go to questions. You can, you 
know, bring up Reverend Isaac, now, or----
    Mr. Quander. Actually, if I may----
    Senator DeWine. Or do you want----
    Mr. Quander [continuing]. I would like to invite, with the 
Committee's permission, Paul Brennan, who is a supervisory 
community supervision officer and an individual who is 
intimately responsible for actually implementing and actually 
making sure that the Global Positioning System monitoring 
system is working.

                    DEMONSTRATION OF GPS MONITORING

    Paul supervises one of our sex offender units, and these 
are the individuals who we want to make sure we have constant 
control and monitoring. So Paul has been instrumental in 
getting the system up and running, and he is the individual who 
is most familiar, and I would like to invite him to come 
forward and to just talk for a moment and explain what we have 
done and how we have done it.
    Paul.

                       STATEMENT OF PAUL BRENNAN

    Mr. Brennan. Good morning. First, I would like to make sure 
you have a handout that looks like this, to follow along.
    Senator DeWine. We do not.
    Mr. Brennan. Well, let us look here.
    Senator DeWine. Yes. One. Okay. Very good. Okay.
    Senator Landrieu. We have another one.
    Senator DeWine. We are in business.
    Mr. Brennan. Great. What I am going to show you is just a 
brief clip of an offender--of a sex offender, high-risk sex 
offender released from prison. It is going to show his 
movements to a location that we later had to investigate----
    Senator DeWine. All right.
    Mr. Brennan [continuing]. And I will talk about the 
findings of what we found out. What you will see on the screen 
is the offender at a bus stop that we identified. The green 
represents--the green dots represent the offender. The arrows 
will represent movement of the offender.
    As you can see, the offender is around this bus stop here.
    Senator DeWine. Where does this show up, though, in the 
real world? I mean, it does not show up here in the Capitol on 
the screen. Where is it?
    Mr. Brennan. It shows up on our computer screen that we can 
pull up from our office.
    Senator DeWine. And who monitors that?
    Mr. Brennan. The supervising officers will monitor this on 
a daily basis.
    Senator DeWine. The officer for that particular individual 
or is there just somebody who monitors it in general?
    Mr. Brennan. Each officer will be monitoring their 
offender's movements each day.
    Senator DeWine. Okay.
    Mr. Brennan. They will be most intimately aware of what the 
issues are to look for.
    Senator DeWine. Okay.
    Mr. Brennan. With this particular offender, he's a child 
molester and we want to keep him away from schools. He's not 
allowed to use the internet and so forth.
    You see his movements as he comes into the City. He stops 
at this location. We lose GPS at this location. That typically 
means an offender has gone inside of a building. We know that 
this is G Street. We know that Martin Luther King Library is 
down here.
    We brought the offender in and investigated why he was in 
this particular location, and from that investigation 
determined that he was using the internet at Martin Luther King 
Library which was a condition of his release that prohibited 
him from doing such. So from that, we were able to sanction the 
offender, put tighter restrictions on him.
    I am going to show you another clip of the same offender 
who is at the halfway house. He goes to the same bus stop. Down 
at the bottom of the screen you can--in your handout you can 
see it clearer, the time, the date, and he travels down to 
Anacostia Metro Station. Now, he's on his way--he is permitted 
to leave the halfway house to go to a job program. The job 
program is not in this area.
    So what caused us to be concerned is: Why is he going out 
of his way to go to this particular stop? What we notice are 
the red indicators here of schools. The time of day is between 
7:00 a.m. and 8:00 a.m. So when kids are going to school, they 
may be taking that particular subway station.
    As I play the movements, you can see that the offender is 
there for an extended--almost an hour, which is highly unusual, 
and you can see him loitering around the location. And this, 
right here, and that to us is suspicious. Why is he in that 
location?
    In a minute you'll see him now getting on public 
transportation. We lose GPS. That means he is probably on a 
bus, and then he ends up in this location. He gets off the bus, 
and now he is walking to his program. You see a school here. 
And there is his program, right here. And it sees him stop. 
Now, here is the closest Metro. So, why was he at the Anacostia 
station? We later determined that he had gone there repeatedly. 
That was enough for us to take it back to the parole commission 
and revoke his parole.
    Do we have time for one more clip?
    Mr. Quander. Let me just make a point. We would never have 
known the travel pattern of this individual unless we had the 
monitoring system. What happened was once he went to the 
Anacostia station, the next morning when the supervising CSO 
took a look at his screen, the information automatically was 
there. So he could look at it, analyze it, and indicate--the 
indications were right there, that there were three schools, 
and we also saw that he was standing there for 1 hour.
    And why does a sex offender get off at a subway stop which 
is not the closest one to where he is going and which is in 
close proximity to three schools? We were able to use this 
information to confront him with it and get him to acknowledge, 
No. 1, yes, he was there and, No. 2, he should not have been 
there. And then we could take the appropriate action.
    The other thing that this allows us to do is when we 
present this to a releasing authority, whether it is the 
Superior Court or the U.S. Parole Commission, it makes it very 
difficult for people to explain away. There is no longer an 
issue as to whether or not you were there. This technology 
proves it. There is not much that you can say. It is 
irrefutable, essentially, and allows us to keep control over a 
population that we are most concerned about. Okay.
    Senator DeWine. Good. No, that was great. Thank you, very 
much.
    Mr. Quander. Okay. Thank you. Okay. Go ahead.
    Mr. Brennan. The hardware is up here if you wanted to 
examine it. Also, in the green packets, there is a description 
of how it works and that is from the company. Feel free to 
review that.
    Senator DeWine. Sure. Go ahead.
    Senator Landrieu. How expensive was this system to put in 
place and what is the annual cost of maintaining it? And I am 
not talking about the people that have to analyze it. I am just 
talking about the software and the general maintenance.
    Mr. Quander. We are--we have a vendor, a contract with a 
vendor. Our costs are $6 a day per unit that we have available 
to us. The committee appropriated $100,000 for us to get the 
program up and operational. We would like to expand the use to 
get as many as 200 individuals on to the GPS system.
    Senator Landrieu. Let us talk about the cost if we could, 
Mr. Chairman, for just a minute. This is the device that costs 
$6 a day?
    Mr. Quander. It is the whole system.
    Senator Landrieu. It is the whole system?
    Mr. Quander. Yes.
    Senator Landrieu. And for $6 a day you can monitor a 
felon----
    Mr. Quander. Yes.
    Senator Landrieu [continuing]. A person? And we have money 
to monitor how many?
    Mr. Quander. Right now, we can monitor 100 individuals.
    Senator Landrieu. And how many do we have?
    Mr. Quander. Right now, there are nine that are actually on 
the program.
    Senator Landrieu. No. How many offenders are we trying--
what is our goal of trying to monitor, how many?
    Mr. Quander. I am--I have funding to monitor 100. I would 
like to monitor 200.
    Senator Landrieu. All right. How many----
    Senator DeWine. But how many----
    Senator Landrieu [continuing]. Then would----
    Senator DeWine. Excuse me. How many are we actually 
monitoring right now?
    Mr. Quander. Today, we have nine offenders on GPS.
    Senator DeWine. Why are we only at nine?
    Mr. Quander. Because we are still in the pilot phase of the 
program----
    Senator DeWine. Okay.
    Mr. Quander [continuing]. And we are evaluating. The other 
issues are: We have to train staff. Right now, most of the 
offenders are in the sex offense unit, and so Mr. Brennan, who 
supervises that unit, has received the training and the know 
how. The other thing, it is intensive as far as analyzing the 
material.
    Senator DeWine. Okay.
    Mr. Quander. Once this information is provided, then the 
CSO has to sit down, has to analyze it, know the patterns, and 
then confront the individual and do the follow up. So, it is 
labor intensive. So, we have to be in a caseload ratio.
    So, right now, although the sex offense caseload is about 
29 to 1 as of January, this past January, the closer we get it 
down to those lower numbers, the more effective we can use 
this, make this tool.
    Senator Landrieu. Let me try to re-ask my question, and I 
am very impressed with the technology and, believe me, I want 
to help you, and I can see the benefits of it. I can also see 
the--and understand the issue you just raised because we have 
talked about it before. But as good as the technology is, it is 
only as good as you can analyze it and have the people there to 
sit at the screen and to do the appropriate calculations and 
then take the time to follow up.
    So I am clear, I am just trying to understand that this 
pilot, although it is good, it seems to me to be very, very 
small in the sense that we have, according to this, 500 sex 
offenders that are released on the streets and we are 
monitoring nine, nine people right now?
    Mr. Brennan. We have actually hooked up over 50 in the 
course of the pilot.
    Senator Landrieu. So 50 out of 500 of the sex offenders. 
And how many of the mental health--we have 666 mental health 
individuals that are described as mental health. Are we 
monitoring any of those?
    Mr. Quander. None of the mental health population are on 
the GPS.
    Senator Landrieu. How about domestic violence?
    Mr. Quander. Well----
    Senator Landrieu. We have 1,122?
    Mr. Quander. During the course of the pilot phase, there 
have only been two, I believe, domestic violence individuals.
    Senator Landrieu. This is a very small pilot, but it is 
very promising.
    Mr. Quander. Yes.
    Senator Landrieu. But the problem is: The resources are 
short and the staffing issues are substantial. But it seems 
like, is it the, I guess--I am going to finish up here in a 
minute.
    But is it the code of consensus of the professionals that 
do this that this is a pretty extraordinary system if it can be 
funded and staffed appropriately? Because, as you said, I mean, 
I am sure everything is--nothing is foolproof, but this seems 
pretty convincing to me; that is, trying to monitor activities 
of people and trying to catch them before another terrible 
incident occurs. Is that your general sense?
    Mr. Quander. It is, and----
    Senator Landrieu. I am not trying to lead you to an answer. 
I just want to know what your feeling is, yes or no.
    Mr. Quander. It is, and let me try to respond this way. 
Possibly 3 weeks ago we provided training to the Judges, the 
Criminal Division Judges in Superior Court, for what is 
involved in dealing with the sex offender, and a portion of 
that training dealt with the Global Positioning System, and we 
walked through it because we wanted to educate them so that 
they knew it was available so that they could use it.
    Once we did that demonstration, the phone calls have been 
coming in. So there is a need. There is agreement in the 
community, the criminal justice community, that this works, 
that it is a tool that can better protect the public.
    It is also a tool that helps us assist the offenders to be 
successful in their period of supervision. The more individuals 
that I can keep on the streets of the District of Columbia 
successfully complying with the rules, the better we are as a 
city, and the better their chances are for completing 
supervision successfully in taking advantage of all the other 
tools that we have available. This helps us to keep offenders 
accountable, and if we have them accountable, then we can do 
all the other things that we need to do to make that 
transition.
    Senator DeWine. The pilot program will run its course when?
    Mr. Quander. Well, we have funding for this fiscal year, 
and we have funding for 100 for next fiscal year, but as I 
indicated, we are very interested in trying to expand, because 
I want to make it available to the CSO's who have individuals 
who are just on their regular caseload.
    Senator DeWine. When do you think you will move from the 
nine up to the next stage? I mean----
    Mr. Quander. Actually, we are looking to do that by the end 
of May. There is some training that has to take place with the 
staff. There are some union issues that have to be overcome, 
but I am not anticipating any problems, because we are talking 
about a change in the way that we do business. So by the end of 
May we should be close to having 50 and by the end of the 
fiscal year, we will have a minimum of 100 people, I believe, 
on the Global Positioning System.
    Senator DeWine. What kind of union issues do you have?
    Mr. Quander. Union issues are just that there is a change 
in the way that we are going to do business. This is going to 
require our staff to analyze material, to be familiar with 
patterns, to do things just a little differently. I am not 
anticipating any problems. In fact, I have a meeting with the 
union scheduled next week. They know where we are going. The 
staff is very receptive. They like it. It gives them an 
opportunity to do the work that they really want to do, and 
that is to make a change in individual's lives. The more tools 
that we can give the staff, the easier it is for them to do 
their job and the better the results.
    Senator DeWine. Good. Okay. Very good. What else do you 
have to show us here?
    Mr. Quander. There is one additional slide if you would 
like to, Paul.
    Senator DeWine. Yes, I think we had better--I think we had 
better move to Reverend Isaac at this point.
    Mr. Quander. Reverend Isaac?
    Senator DeWine. Reverend Isaac became the Director of the 
East of the River Clergy-Police-Community Partnership in 2001. 
This partnership was created to address issues associated with 
high-risk youth and the young adults who are at risk of being 
in the criminal justice system. Reverend Isaac also serves as 
the Chairman of CSOSA's Faith Advisory Committee, and is a 
member of the Juvenile Justice Advisory Committee, and has 
served on the Board of Directors of the Thurgood Marshall 
Charter School.
    Reverend Isaac. Yes. Good morning.
    Senator DeWine. Reverend, thank you for joining us.
    Reverend Isaac. Thank you for having me.
    Senator DeWine. We appreciate it very much.
    Reverend Isaac. Thank you.

                   STATEMENT OF REVEREND DONALD ISAAC

    Reverend Isaac. Mr. Chairman and members of the committee, 
thank you for this opportunity to appear today to represent the 
partnership between the Court Services and Offender Supervision 
Agency and the District of Columbia faith community.
    I am Reverend Donald Isaac, Executive Director of the East 
of the River Clergy-Police-Community Partnership and Associate 
Pastor of the Southeast Tabernacle Church. I am also Chairman 
of the CSOSA Faith/Community Partnership Advisory Council, and 
it is in that context that I come before you today.
    Over the past few years, government has begun to understand 
and notice the extent to which the faith institutions 
contribute to community stability, family strength, and public 
safety. The executive order establishing the White House Office 
of Faith-Based and Community Programs states that, ``Faith-
based and other community organizations are indispensable in 
meeting the needs of poor Americans and distressed 
neighborhoods.'' As a minister in the District of Columbia, I 
see the truth of that statement every day.
    I have dedicated my ministry to reversing the trend of 
escalating crime and violence amount our City's young people. 
Therefore, I am very interested--I was very interested when 
CSOSA issued the call in 2001 asking the City's clergy to 
establish a faith/community partnership that uses the power and 
resources of faith institutions to help offenders under 
community supervision.
    From the very beginning, several aspects of CSOSA's 
approach to the faith/community partnership were encouraging. 
First, CSOSA represents--respects the autonomy and authority of 
faith institutions. Second, they acknowledge that our resources 
are limited, and that a partnership is a two-way street. They 
are willing to give something to get something. CSOSA put in 
place and funded a structure to support offenders' access to 
faith/community programs and services. And third, they value 
and respect all creeds and denominations.
    CSOSA supports the efforts of our Advisory Committee--or 
Council to remain truly representative of the City's 
congregations. Our Advisory Council currently has 19 members 
drawn from the City's diverse Christian and Muslim 
congregations.
    The Faith/Community Partnership chose mentoring as its 
first initiative because it allows individual volunteers and 
returning offenders to connect in an immediate and personal 
way. Relationships are the core of mentoring, but successful 
mentoring involves much more than conversation. It involves 
empathy and support. Mentors must be able to understand the 
obstacles and temptations their mentees face, the obligations 
of community supervision, and the opportunities they need to 
find.
    CSOSA has developed and delivered mentor training that 
touches on most of these issues, but no classroom experience 
can prepare an individual for how hard the work is.
    The initial 100 matches between mentors and mentees have 
yielded wonderful examples of that support. Shirley Hall was 
released from prison in October 2002 at the age of 39. When she 
joined us, she had a long history of drug use and 
incarceration. In fact, she was referred to us after having her 
parole revoked for drug use. She told us that she needed the 
support of other women to stay out. We placed her with Upper 
Room Baptist Church.
    Reverend Catherine Bago, the associate pastor, has worked 
for many years with substance abuse and runs a well-regarded 
aftercare program. Shirley received a lot of support from the 
women's group at Upper Room, as well as from Reverend Bago 
personally. She has been drug-free since her release and is 
pursuing a long-term career as a commercial driver. She has 
managed to stay clean even though she has faced a lot of 
stress. Both her parents have been ill, and she started a job 
that did not work out. She may have relapsed, but she did not. 
She stayed strong and credits that success in part to the 
support she received from Upper Room.
    Ms. Hall's case provides a good example, not just of the 
personal support mentoring provides, but of faith-based support 
services, as well. Ms. Hall's parole has had a special 
condition requiring substance abuse aftercare. Attendance at 
Reverend Bago's program has enabled her to satisfy that 
condition in a way that reinforced her connection to the faith 
community. Upper Room's program lasts as long as Ms. Hall wants 
to attend it. Ms. Hall has had access to a supportive women's 
group long after her parole has ended.
    The District of Columbia faith institutions provide a wide 
range of support services, including job training and 
placement, family counseling, food and clothing banks, and 
transitional housing. We at the East of the River Clergy-
Police-Community Partnership are proud of our recently 
developed housing facility, which was dedicated as part of this 
year's reentry activities.
    ERCPCP is also pleased to have been selected as a pilot 
program for the Ready4Work Program administered through the 
Department of Labor. This program will enable us to greatly 
expand our job readiness and placement activities over the next 
3 years.
    Another lead institution in the CSOSA Faith/Community 
Partnership, New Commandment Baptist Church, has received funds 
from the Department of Justice to expand its program, as well. 
Our involvement with CSOSA has prepared us for the challenge of 
administering broader initiatives and, in turn, the offenders 
under CSOSA supervision will benefit from an increased range of 
support programs.
    The CSOSA Faith/Community Partnership has grown from a 
dozen ministers at a conference table to a City-wide initiative 
involving hundreds of individuals. We are beginning to attract 
the additional resources needed to expand the services that are 
essential to success. We have expanded mentoring to reach out 
to prisoners, to prison inmates before they return home. 
Because those early weeks are so critical, we want to make sure 
the inmate knows where to find us as soon as he gets off the 
bus.
    All this adds up to a promising start. CSOSA is committed 
to working with us, and we are committed to providing permanent 
fellowship and support to any offender who wants it. We are in 
this for the long haul, and we hope that the resources will be 
available for us to make even more of our inspirations into 
realities.
    CSOAS--excuse me. CSOSA reached out to us because they 
recognized the limitations of law enforcement. Community 
supervision lasts only a short time, while the faith community 
can be a source of permanent inspiration. Community supervision 
is a consequence of past behavior, but faith institutions can 
influence the course of future behavior. Community supervision 
is about external accountability, but faith is about internal 
change. As in any good marriage, the two partners in this 
enterprise complement each other.

                           PREPARED STATEMENT

    I look forward to continuing our work with CSOSA, and I 
thank you again for this opportunity to tell you about it. I 
will be happy to answer any questions that you may have at this 
time.
    [The statement follows:]
              Prepared Statement of Reverend Donald Isaac
    Mr. Chairman and Members of the subcommittee, thank you for this 
opportunity to appear today to represent the partnership between the 
Court Services and Offender Supervision Agency and the District of 
Columbia faith community. I am Rev. Donald Isaac, Executive Director of 
the East of the River Clergy-Police-Community Partnership and Associate 
Pastor of Southeast Tabernacle Church. I am also the Chairman of the 
CSOSA/Faith Community Partnership Advisory Council, and it is in that 
capacity that I come before you today.
    Over the past few years, government has begun to notice the extent 
to which faith institutions contribute to community stability, family 
strength, and public safety. The Executive Order establishing the White 
House Office of Faith-Based and Community Programs states that 
``[f]aith-based and other community organizations are indispensable in 
meeting the needs of poor Americans and distressed neighborhoods.'' \1\ 
As a minister in the District of Columbia, I see the truth of that 
statement every day. I have dedicated my ministry to reversing the 
trend of escalating crime and violence among our city's young people. 
Therefore, I was very interested when CSOSA issued their call in 2001, 
asking the city's clergy to establish a faith/community partnership 
that uses the power and resources of faith institutions to help 
offenders under community supervision.
---------------------------------------------------------------------------
    \1\ White House Office of the Press Secretary, ``Executive Order: 
Establishment of the Office of Faith-Based and Community Initiatives,'' 
January 29, 2001.
---------------------------------------------------------------------------
    From the beginning, several aspects of CSOSA's approach to faith/
community partnership were encouraging. First, CSOSA respects the 
autonomy and authority of faith institutions. Second, they acknowledge 
that our resources are limited, and that a partnership is a two-way 
street. They are willing to give something to get something--CSOSA put 
in place and funded a structure to support offenders' access to faith 
community programs and services. And third, they value and respect all 
creeds and denominations. CSOSA supports the efforts of our Advisory 
Council to remain truly representative of the city's congregations. Our 
Advisory Council currently has 19 members drawn from the city's diverse 
Christian and Muslim congregations.
    The Faith/Community Partnership chose mentoring as its first 
initiative because it allows individual volunteers and returning 
offenders to connect in an immediate, personal way. Relationships are 
the core of mentoring, but successful mentoring involves much more than 
conversation. It involves empathy and support. Mentors must be able to 
understand the obstacles and temptations their mentees face, the 
obligations of community supervision, and the opportunities they need 
to find. CSOSA has developed and delivered mentor training that touches 
on most of these issues, but no classroom experience can prepare an 
individual for how hard the work is.
    The initial 100 matches between mentors and mentees have yielded 
some wonderful examples of that support. Shirley Hall was released from 
prison in October 2002 at the age of 39. When she joined us, she had a 
long history of drug use and incarceration; in fact, she was referred 
to us after having her parole revoked for drug use. She told us that 
she needed the support of other women to stay out. We placed her with 
Upper Room Baptist Church. Rev. Catherine Bago, the associate pastor, 
has worked for many years with substance abuse and runs a well-regarded 
aftercare program. Shirley received a lot of support from the women's 
groups at Upper Room, as well as from Rev. Bago personally. She has 
been drug-free since her release and is pursuing a long-term career as 
a commercial driver. She has managed to stay clean even though she has 
faced a lot of stress--both her parents have been ill, and she started 
a job that didn't work out. She might have relapsed. But she didn't. 
She stayed strong, and she credits that success in part to the support 
she received from Upper Room.
    Ms. Hall's case provides a good example not just of the personal 
support mentoring provides but of faith-based support services as well. 
Ms. Hall's parole has a special condition requiring substance abuse 
aftercare; attendance at Rev. Bago's program enabled her to satisfy 
that condition in a way that reinforced her connection to the faith 
community. Upper Room's program lasts as long as Ms. Hall wants to 
attend it. Ms. Hall will have access to a supportive women's group long 
after her parole is ended.
    The District of Columbia's faith institutions provide a wide range 
of support services, including job training and placement, family 
counseling, food and clothing banks, and transitional housing. We at 
East of the River Clergy-Police-Community Partnership (ERCPCP) are very 
proud of our recently developed housing facility, which was dedicated 
as part of this year's Reentry Week activities. ERCPCP is also pleased 
to be selected as a pilot site for the Ready4Work program administered 
through the Department of Labor. This program will enable us to greatly 
expand our job readiness and placement activities over the next 3 
years. Another lead institution in the CSOSA/Faith Community 
Partnership, New Commandment Baptist Church, has received funds from 
the Department of Justice to expand its programs. Our involvement with 
CSOSA has prepared us for the challenge of administering broader 
initiatives, and in turn, the offenders under CSOSA supervision will 
benefit from an increased range of support programs.
    The CSOSA/Faith Community Partnership has grown from a dozen 
ministers at a conference table to a citywide initiative involving 
hundreds of individuals. We are beginning to attract the additional 
resources needed to expand the services that are essential to success. 
We have expanded mentoring to reach out to prison inmates before they 
return home. Because those early weeks are so critical, we want to make 
sure the inmate knows where to find us as soon as he gets off the bus.
    All this adds up to a promising start. CSOSA is committed to 
working with us, and we are committed to providing permanent fellowship 
and support to any offender who wants it. We are in this for the long 
haul, and we hope that the resources will be available for us to make 
even more of our inspirations into realities. CSOSA reached out to us 
because they recognized the limitations of law enforcement. Community 
supervision lasts only a short time, while the faith community can be a 
source of permanent inspiration. Community supervision is a consequence 
of past behavior, but faith institutions can influence the course of 
future behavior. Community supervision is about external 
accountability, but faith is about internal change. As in any good 
marriage, the two partners in this enterprise complement each other.
    I look forward to continuing our work with CSOSA, and I thank you 
again for this opportunity to tell you about it. I will be happy to 
answer any questions you may have at this time.

    Senator DeWine. Reverend, thank you very much.
    Am I understanding that you have a video that shows some of 
the teleconferencing that goes on with some of the inmates? Can 
you show that for us?
    Reverend Isaac. Yes.
    That is it.
    Senator DeWine. Good. That is very good. Now, who has the 
availability to access that? I saw that was a mentor there, or 
he was identified as. Family members have the ability to do 
that, as well, or----
    Mr. Quander. Actually, we do; we invite the family members 
down, during certain portions of the video conferencing, so 
that we can establish that connection. Some of the men--what we 
are trying to emphasize are those pro-social values that the 
faith institutions have, and a part of that is that 
restructuring of that family or reconnection because some of 
those family bridges have been burned and the mentors and the 
faith community help us, oftentimes, reestablish and reconnect 
with those men, and the more that we can do that the more 
support that we have, the more assistance that the CSO has in 
making sure that offenders are being held accountable, and at 
the same time that those services and support mechanisms are in 
place.
    So the family members do come down, including the children, 
so that they can reestablish those connections with their 
fathers.
    Senator DeWine. Senator Landrieu.
    Senator Landrieu. Let me pursue that line of questioning 
about trying to keep convicted felons connected to their 
families, restrengthening the families where possible.
    With the women prisoners--I understand that we have quite a 
challenge with all the prisoners, but particularly with women, 
many of whom are mothers, as many of the men would be fathers. 
But I understand that the majority of women are placed either 
in West Virginia or Connecticut?
    Mr. Quander. That is correct.
    Senator Landrieu. And how many miles away are those 
facilities, Alderson and Danbury?
    Mr. Quander. I am not sure, but I believe that Alderson is 
within 500 miles of the District, but I also believe that it is 
probably a 6- or 7-hour drive there. Danbury is going to be an 
8-hour drive, I believe.
    Senator Landrieu. Okay.
    Mr. Quander. So it is a significant distance that families 
often have to travel so that they can stay connected. One of 
the things that we are working with, just as we have 
established this video conference with Rivers in North 
Carolina, we are working with the Bureau of Prisons and with 
other organizations and the faith group to establish a similar 
link either at Alderson or at Danbury. So that we can start the 
same process and, hopefully, we can strengthen what we are 
doing and strengthen those families through this 
teleconferencing capability.
    Senator Landrieu. And I am just focused on the number here. 
I have about 12 percent of the population that we are talking 
about is female, about 8,000 in jail. So, roughly, that would 
be a little over 800, maybe 1,000 female individuals, if my 
math is correct. Eight thousand in jail, 12 percent female, 
does that match with what you all--approximately, 1,000?
    Mr. Quander. I think it is going to be a little less than 
1,000 female offenders----
    Senator Landrieu. Okay. Eight hundred?
    Mr. Quander [continuing]. Through a----
    Senator Landrieu. Eight hundred, maybe? Somewhere--am I 
right, between about 700 and 1,000? Is that safe?
    Mr. Quander. I believe that would be accurate. Yes.
    Senator Landrieu. Okay.
    Mr. Quander. But the Bureau of Prisons would have the best 
stats, the best information.
    Senator Landrieu. Okay. If there is 700, Mr. Chairman, to 
1,000, I am wondering what kind of other options there are for 
the teleconferencing opportunities, whether they are, you know, 
once a week, once a month, once a quarter, with family members, 
or trying to get some of those inmates closer to the community. 
I think there are a couple of components here.
    I mean one is trying not to just reunite them with the 
community, but reunite them with the families which is part of 
the community which is important, trying to keep those bonds 
from fraying in the first place, as well as, the professional 
supervision, so it all works together in an integrated way.
    And, Mr. Chairman, I think we have quite a challenge, A, to 
try to keep these inmates closer, physically, but also use this 
technology when the physical location is impossible to really 
make that connection. Now, what is limiting us? Is it--again, 
is it the cost of the software? Is it the--what are the 
limitations so that this is not being available to all, let us 
say, 700 or 800 women, now?
    Mr. Quander. One of the issues is that the women are not 
located in one facility. They are spread throughout the 
country. Alderson, I believe, houses the largest number of 
female offenders, D.C. co-defenders. And, I believe, that 
number is going to be--actually that is, as I understand it, 
there are 67 women in Alderson facility. There is, I believe, a 
lesser number in the facility in Massachusetts--in Connecticut.
    All total from the Bureau of Prisons, I understand, is 
approximately less than 300 females that are housed in Bureau 
of Prisons' facilities throughout the country, but they are 
spread throughout the country. And so, thus, one of the 
limitations is that we do not have them in one or two central 
locations. Those two central locations are Alderson and 
Danbury. And so that is why we are focusing on that.
    We have actually had meetings with the Bureau of Prisons, 
and the Bureau is receptive. They see the benefit. The wardens 
and the support staff in those facilities see the benefit of 
doing this. We are just in the process of trying to make it 
happen. We are the agency that actually receives the 
individuals once they have left the prison. What we want to do 
is sort of extend our reach to get them before they have come 
to us, because we think there are some services that we can 
provide that will help them with that transition, and the faith 
community has been very supportive, and we think we are there.
    Senator Landrieu. Well, the final thing I will say on that, 
I think the Chairman and I would be more than happy to help you 
with the Bureau of Prisons to try and develop a stronger 
partnership as people are getting close to their release time, 
to move them closer to the community, physically, and then 
connect them via as much, you know, using some of this new 
technology as possible, not just for the women but for the men.
    But, I think, particularly in terms of many of these women 
who are the primary caretakers of the children, we want those 
relationships to be maintained as much as possible. So that is 
all I will say, Mr. Chairman. But any ideas you have, please 
let us know and we will work with you on that.
    Mr. Quander. Thank you. One of the things that we have 
discussed with the Bureau is designating those two facilities 
and the Rivers facility, essentially, as a feeder site; as 
individuals get closer to their release date, using those 
facilities so that we can have a critical mass, and if we have 
a critical mass at these facilities, then we can continue to 
use those services.
    If the facility is Alderson or Danbury, that is fine. And 
the Bureau has indicated its willingness to work with us to, 
maybe, sort of, funnel individuals in that direction, so that 
if we can get them there, then we can start establishing some 
of the services that, I think, we can provide.

                 STATUS OF REENTRY AND SANCTIONS CENTER

    Senator DeWine. Mr. Quander, I just have one question. In 
your written statement and your oral statement, you talked 
about the Reentry and Sanctions Center.
    Mr. Quander. Yes.
    Senator DeWine. I am unclear how far along that is as far 
as capacity. You say, ``At present, the AOC treats 
approximately 250 individuals per year. The 108-bed Reentry and 
Sanctions Center will provide, approximately, 1,200 program 
slots annually.'' So are you totally up and running or--I do 
not quite understand that.
    Mr. Quander. No. Where we are----
    Senator DeWine. This and that.
    Mr. Quander. Okay. Where we are, Senator, is that we have a 
facility which is on the grounds of D.C. General Hospital, 
Karrick Hall, which is--we have to renovate, essentially gut, 
put new heating, air conditioning. I mean, we have to go in. 
This committee appropriated $13 million----
    Senator DeWine. In 2002, right? Which one----
    Mr. Quander. Yes. But we had to negotiate with the city. We 
had to bring the community in. There were a lot of issues that 
needed to be resolved before we could actually enter into the 
lease agreement, which took us a while to get.
    Senator DeWine. So where is that construction? Where is 
that?
    Mr. Quander. Actually, all the paperwork is done. We had 21 
men that were in the facility. They have been relocated to 
swing space, which is in the community. Construction is 
beginning. We are anticipating having the facility ready for 
operation, hopefully, in May of 2005. We will be able to expand 
that population in our facility so that we can house women 
there, so that we can house a mental health unit and four units 
for men, which will really increase our capacity to provide the 
type of service that we need. And with this group, this is the 
group of that core 30 percent of long-term substance abusers 
with at least six prior contacts. These are the individuals 
who, we believe, are doing most of the damage in our city. If 
we can get their substance abuse problems under control----
    Senator DeWine. So you will be rolling by May of next year, 
then?
    Mr. Quander. That is what we are anticipating, having the 
facility and going in and rolling. Yes.
    Senator DeWine. And what does that do then to your 
operating budget when you hit that level?
    Mr. Quander. Well, right now, we are funded--we have 
partial year funding for that, that will take us through fiscal 
year of 2005. And fiscal year 2006, there is going to be a 
substantial increase that we are going to need to continue the 
operation.
    Senator DeWine. Are you covered in this proposed budget 
then?
    Mr. Quander. Yes, for 2005.
    Senator DeWine. That would be a partial year, then?
    Mr. Quander. A partial year, that is correct.
    Senator DeWine. And you are covered in the President's 
budget for that?
    Mr. Quander. Yes, for the partial operations.
    Senator DeWine. Because you are going to be substantially 
up--I mean, once you move into that facility, it is like you 
are moving into any new facility, your costs just kind of go 
up, is that right?
    Mr. Quander. That is correct. So for the partial year 2005, 
I believe, we are covered. The issue will be in fiscal year 
2006, when we go to full-year funding for the program.
    Senator DeWine. Let me ask one last question and then we 
will move to our next panel: This committee has worked with you 
to take down the ratio when you are dealing with sex offenders 
and other special population offenders, but from your budget 
submission, it appears that your general population--you are at 
a ratio of 1 to 125. That sounds high. How does that compare to 
other jurisdictions?
    Mr. Quander. No, actually, our general population--our 
general supervision numbers are about 50 to 1. What you may be 
referring to----
    Senator DeWine. Maybe I misread that.

                           PRETRIAL CASELOADS

    Mr. Quander. But I would like to speak to that just for one 
moment, because that is the ratio of the general supervision in 
the pretrial services area for those individuals who have not 
been adjudicated or convicted.
    Senator DeWine. Pretrial?
    Mr. Quander. Pretrial.
    Senator DeWine. Okay.
    Mr. Quander. That ratio is extremely high, as you noted. It 
is about 127 to 1. I believe----
    Senator DeWine. How does that compare to other 
jurisdictions, pretrial service----
    Mr. Quander. In the----
    Senator DeWine [continuing]. Comparing apples to apples, 
then?
    Mr. Quander. It is difficult to compare because the 
District is unique. If you look at Federal pretrial in 
surrounding jurisdictions, Northern Virginia and in Maryland, 
those numbers are in the range of about 60 to 1. What we have 
requested is an area that will get us down to 80 to 1. It is--
--
    Senator DeWine. How about State pretrial?
    Mr. Quander. State pretrial, there are not any standard 
numbers that we have been able to really pull together, but we 
do know that 127 to 1 is--that does not allow us to do anything 
but just to process the paperwork. If we are going to do the 
type of supervision that we need, our numbers in that area have 
to come down, and they have to come down dramatically.
    Senator DeWine. So these--just so I understand, these would 
be the felons, misdemeanors, what are they? Who are they?
    Mr. Quander. On the pretrial side?
    Senator DeWine. Yes, right, that is what we are talking 
about.
    Mr. Quander. It would be felons and misdemeanors----
    Senator DeWine. Mostly a----
    Mr. Quander [continuing]. But mostly felons.
    Senator DeWine [continuing]. Mixed group.
    Mr. Quander. Yes, but mainly felons that are in there and 
then----
    Senator DeWine. Mainly felons?
    Mr. Quander. That is correct.
    Senator DeWine. Okay. Pretrial, mainly felons, 125 to 1. 
Yes, that does sound high.
    Mr. Quander. It is.
    Senator DeWine. We all agree it is high, right?
    Mr. Quander. Yes, we do.
    Senator DeWine. We agree it is a problem?
    Mr. Quander. We believe it is a potential problem. Yes.
    Senator DeWine. So, really--I mean, we are using nice words 
here, but we are not doing much.
    Mr. Quander. We are only----
    Senator DeWine. We are watching them on paper?
    Mr. Quander. We are processing----
    Senator DeWine. Processing paper, but that is about all we 
are doing, is it not?
    Mr. Quander. I like to go out, and I like to talk to the 
people that are really do the work, and I went out recently and 
spoke with a pretrial services officer and she said, ``Mr. 
Quander, all I am doing is processing paper.''
    Senator DeWine. Well, if they mess up, we know it maybe.
    Mr. Quander. Exactly. And she indicated that she----
    Senator DeWine. If the police pick them up again, we know 
it, but that is about it.
    Mr. Quander. And she said she wants to do more, but she 
cannot with the caseload with the way that it is.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator DeWine. I see it. Okay. So we have got a problem. 
Okay. All right. Thank you all very much.
    Mr. Quander. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Agency for response subsequent to the 
hearing:]
               Questions Submitted by Senator Mike DeWine
                     community supervision program
    Question. What are the key performance goals and measures used to 
manage CSOSA's offender supervision program?
    Answer. CSOSA's Community Supervision Program (CSP) has adopted 
improvement in public safety as its most important outcome. While many 
factors influence public safety, CSP can contribute to it by reducing 
recidivism among the population under supervision. Both new convictions 
and revocations that result in loss of liberty contribute to the 
overall recidivism rate.
    The achievement of this long-term outcome depends on CSP's success 
in changing the offender's behavior and assisting him or her in 
establishing a stable, crime-free lifestyle. It is necessary to 
confront the problems most often at the root of criminal behavior as 
well as to enforce conditions of release. CSP targets five key 
intermediate outcome areas for its offender population that must first 
be addressed to improve public safety:
  --Decrease Rearrest.--The rate of rearrest is one indicator of 
        potential criminal activity among the supervised population. 
        Effective supervision and sanctions should result in a 
        decreased rearrest rate among the offenders under supervision.
  --Decrease Technical Violations.--Offenders violate the conditions of 
        their release by using drugs, changing residence or traveling 
        without permission, failing to complete treatment, and other 
        behaviors. Such ``technical'' violations often precede more 
        serious criminal behavior. CSP has therefore targeted a 
        reduction in the percentage of offenders who accumulate 
        multiple technical violations as an important measure of 
        whether its sanctions-based supervision model is effective.
  --Decrease Drug Use.--Substance abusers must make progress toward 
        reducing their drug use. CSP tracks changes in substance abuse 
        using drug testing. The measurement of drug use (as measured by 
        positive test results) will reflect the effectiveness of the 
        Agency's testing policy and sanctions for positive tests. 
        Positive drug test results among offenders who have received 
        treatment will be the primary method for assessing the 
        effectiveness of treatment interventions.
  --Increase Job Retention.--CSP works with its partners in the 
        community to develop employment opportunities for offenders 
        under supervision. Because of data availability concerns, 
        initial targets focused on the rate of employment among its 
        offenders. However, with the deployment of a new information 
        system, CSP has modified the measure to focus on the offender's 
        ability to maintain employment. This new measure allows for job 
        change and periods of training but not for long periods of 
        unemployment.
  --Increase Education Levels.--An offender's chances of success 
        improve markedly if he or she functions at a higher educational 
        level. CSP has implemented a system of learning labs to provide 
        educational programming. The objective is to enroll offenders 
        needing assistance in a GED or adult literacy program and to 
        measure progress throughout participation.
    Progress toward the intermediate outcomes is directly related to 
achievement of the long-term outcome of increasing public safety in the 
District of Columbia. If offenders are held accountable for their 
actions and improve the factors that contribute to personal and 
economic success, they are less likely to recidivate. In that way, 
achievement of the intermediate outcomes results in the long-term 
outcome of reduced recidivism.
Critical Success Factors (CSF's)
    CSOSA established the following four Critical Success Factors 
(CSF's) as our primary operational strategies. The CSF's define the 
core day-to-day activities within community supervision. Without 
successful performance of these activities, it would be impossible to 
make progress toward the Agency's intermediate- and long-term outcomes.
  --Risk and Needs Assessment.--Establish and implement (a) an 
        effective risk and needs assessment and case management 
        process, including regular drug testing, to help officials 
        determine whom it is appropriate to release and at what level 
        of supervision, including identification of required treatment 
        and support services, and (b) an ongoing evaluation process 
        that assesses an offender's compliance with release conditions 
        and progress in reforming behavior so that further 
        interventions can be implemented if needed;
  --Close Supervision.--Provide close supervision of offenders, 
        including immediate graduated sanctions for violations of 
        release conditions and incentives for compliance;
  --Treatment and Support Services.--Provide appropriate treatment and 
        support services, as determined by the needs assessment, to 
        assist offenders in reintegrating into the community; and
  --Partnerships.--Establish partnerships with other criminal justice 
        agencies, faith institutions, and community organizations in 
        order to facilitate close supervision of the offender in the 
        community and to leverage the diverse resources of local law 
        enforcement, human service agencies, and other local community 
        groups.
    The CSF's define interdependent processes that, taken as a whole, 
determine long-term outcomes. Risk and needs assessment continually 
inform how offenders are supervised and which services they receive. 
Through partnerships with the community and other criminal justice 
agencies, CSP develops service capacity and improves its supervision 
practices.
    CSP has also put in place a system of output-oriented performance 
measures to track specific oeprational activities related to each CSF. 
Most of these activities are defined within Agency policies. Therefore, 
the specific performance measures track whether we are in fact 
implementing our program model.
    Question. How does CSP classify offenders to enable close 
supervision of those offenders who are high risk for committing serious 
or violent crimes?
    Answer. To classify offenders into an appropriate level of 
supervision, CSP uses a screening instrument that is automated and 
fully integrated within its information system, SMART (Supervision and 
Management Automated Records Tracking). The screener is administered by 
the Community Supervision Officer (CSO) and reviewed by the Supervisory 
Community Supervision Officer (SCSO). Based on answers provided in the 
screener, a score is calculated for the offender's risk. The score, in 
combination with the SCSO's and CSO's assessment, is used to recommend 
the offender's classification to an appropriate supervision level 
(Intensive, Maximum, Medium, or Minimum). Although the recommendation 
is generated automatically, it can be overridden by the CSO with 
supervisory approval. Close supervision is provided to offenders who 
are in an Intensive or Maximum level of supervision.
    The current version of the screener focuses primarily on risk level 
and does not incorporate other factors which, when addressed through 
programmatic interventions, can affect recidivism (see Andrews, Bonta, 
& Hoge, 1990; and Andrews, Zinger, Hoge, Bonta, Gendreau, & Cullen, 
1990). ``Principles of Effective Intervention,'' developed by several 
prominent Canadian researchers (also known as the Canadian Model), 
recommends the use of a comprehensive risk and needs assessment to 
determine the offender's risk of recidivism. This comprehensive 
assessment includes factors such as:
  --Criminal associates;
  --Criminal attitudes;
  --Antisocial personality patterns;
  --Family functioning;
  --School/work;
  --Substance abuse; and
  --Use of leisure time.
    CSP has redesigned and broadened its screener instrument to 
incorporate the Canadian Model. This new assessment instrument will 
also be fully automated within SMART and will not only recommend a 
level of supervision but also will generate a recommended prescriptive 
supervision plan. This plan will present realistic goals and objectives 
for the offender, define appropriate intervention strategies, and track 
the offender's progress. The new screener will enhance and standardize 
the case planning process and will ensure that all offenders are 
appropriately classified, supervised, and placed in programming. It is 
expected that the new screener will become operational by the early 
summer of 2004.
                         supervision strategies
    Question. What techniques are used to monitor the offenders, 
particularly those who are high risk?
    Answer. CSP's supervision strategy emphasizes both risk management 
(minimizing the likelihood of reoffense) and cost avoidance (minimizing 
the circumstances in which reincarceration is necessary to contain the 
offender's non-compliant behavior). Both strategies are achieved 
through appropriate classification and programmatic placements, as well 
as the use of graduated sanctions to address non-compliance.
    Several practices have been implemented to closely monitor high 
risk offenders. These practices include the use of:
  --electronic monitoring;
  --supervisory reprimands;
  --increased office reporting;
  --accountability tours;
  --halfway house placements;
  --halfway back; and
  --GPS monitoring (pilot) for high risk offenders.
    These practices are employed within the context of the offender's 
individual case plan and Agency operating policies. There is no 
effective ``one-size-fits-all'' approach to community supervision. Each 
offender is a unique individual requiring a unique set of programmatic 
interventions and behavioral controls. The Agency has developed a 
comprehensive array of tools that the Community Supervision Officer can 
deploy in the formulation and execution of the case plan.
    Although the Agency has made impressive strides in the full 
implementation of its supervision strategy, not all elements are fully 
operational. For example, the revised auto screener is being tested 
prior to full implementation, and the planned Reentry and Sanctions 
Center will increase the range of intermediate sanctions available to 
CSO's. The GPS monitoring program will also be expanded to become a 
permanent option for supervising high-risk offenders. With the full 
implementation of the remaining elements of the Agency's strategy, 
baseline data will be captured from which the Agency will be able to 
set strategic benchmarks and initiate longitudinal studies to access 
the strategy's effectiveness.
    Question. How many offenders entered CSOSA supervision in fiscal 
year 2003? How many departed after successfully completing terms of 
community supervision? How many offenders did CSOSA supervise over the 
course of a year?
    Answer. CSOSA provided supervision to 21,603 individuals in fiscal 
year 2003. The flow of intakes and case closures is summarized in the 
following table.

----------------------------------------------------------------------------------------------------------------
                                                                                     Satisfactory Closures\1\
                          Type of Case                                Intakes    -------------------------------
                                                                                    Expiration      Termination
----------------------------------------------------------------------------------------------------------------
Probation.......................................................           6,025           1,728             438
Parole..........................................................           1,943             394              14
Supervised Release..............................................              55              19  ..............
Civil Protection Order..........................................             440             174               7
Deferred Sentence Agreement.....................................             287              74               4
                                                                 -----------------------------------------------
      TOTAL.....................................................           8,750           2,389             762
----------------------------------------------------------------------------------------------------------------
\1\ A case may be closed satisfactorily either through expiration of the supervision term, or early termination
  due to the releasing authority's decision to discontinue supervision (generally as a result of the offender's
  exceptional compliance).

    Question. What is the average length of supervision for 
probationers and parolees?
    Answer. The average length of probation is 20 months, and of 
parole, 5 years (60 months).
    Question. Describe CSOSA's use of intermediate sanctions on 
offenders.
    Answer. Intermediate sanctions represent forms of punishment, less 
restrictive than incarceration, that are intended to provide a range of 
correctional options that vary in severity, according to the offenders' 
non-compliant behavior, and are related to the offender's level of risk 
and needs. Intermediate sanctions are designed to both hold offenders 
accountable for their actions and to deter them from engaging in 
criminal activity. These sanctions are best supported when integrated 
with treatment and intervention programs focused on the offender's 
needs, such as substance abuse, employment, and other issues that may 
contribute to the likelihood of reoffense. By using intermediate 
sanctions, CSOSA tries to change the offender's maladaptive, non-
compliant behavior and to increase the likelihood that the offender 
will achieve successful reintegration into the community.
    Successful use of intermediate sanctions requires close 
supervision, good documentation, well-informed collaboration, 
sufficient resources, and a clear understanding between CSOSA staff and 
the offender. The most notable tool CSOSA uses to impose intermediate 
sanctions is the offender accountability contract, which reflects 
widely accepted ``best practices'' in offender supervision.
    A critical factor in CSOSA's strategy to reduce crime and the rate 
of recidivism is its ability to introduce an accountability structure 
into the supervision process and to provide swift responses to non-
compliant behavior. According to CSOSA policy, offenders under 
community supervision must enter into an accountability contract within 
25 working days of the case assignment. By signing this document, the 
offender acknowledges his or her responsibilities under probation, 
parole or supervised releases as granted by the D.C. Superior Court or 
the United States Parole Commission. The accountability contract 
clearly informs the offender of the consequences of non-compliance with 
the rules and regulations of community supervision. The offender 
acknowledges that he/she understands which behaviors will lead to 
intermediate sanctions and which behaviors will result in the request 
of a hearing before the releasing authority and possible 
reincarceration.
    According to Agency policy, there are substance abuse violations 
and other non-criminal ``technical violations'' that warrant the 
imposition of different intermediate sanctions. If the CSO has reason 
to believe the offender is in violation of the general or special 
conditions of the offender's release, intermediate sanctions are 
imposed to address the non-compliant behavior. Sanctions available for 
the CSO to use include:
  --Daily check-in with the supervision officer for a specified period 
        of time;
  --Attendance at a group activity for a specified period of time;
  --Increased drug testing;
  --Increased face-to-face appointments with the supervision officer;
  --Electronic monitoring for a specified period of time;
  --Community service for a specified number of hours;
  --Placement in a residential sanctions facility or residential 
        treatment facility for a specified period of time; and/or
  --Travel restrictions.
    The use of these intermediate sanctions not only serves to hold 
offenders accountable and assist in changing their non-compliant 
behaviors, but also assists the Agency in achieving its mission of 
increasing public safety and reducing recidivism.
    Question. Describe CSOSA's experience in reporting offender 
violations to the releasing authorities.
    Answer. On a regular and consistent basis, CSS staff meet with 
administrative staff of the United States Parole Commission (USPC) and 
the Administrative Judges of the Superior Court for the District of 
Columbia to discuss issues of mutual concern. With regards to the USPC, 
agreements have been reached on the types of cases that will require 
the immediate issuance of a retake warrant by the USPC (i.e., 
subsequent offender felony arrest involving a victim). For all cases in 
which the Agency has deemed the offender to be an imminent danger to 
public safety, the USPC has agreed to the faxing of violation reports 
to their office. These emergency violation reports receive the highest 
priority for review and consideration by the USPC staff for 
presentation to a Commissioner. Our experience generally has been that 
the USPC is very responsive to the Agency with both the request for an 
emergency warrant and the violation reports that are processed on a 
non-emergency basis.
    With regards to the Judiciary, staff must request in the violation 
report that a show cause (violation) hearing be scheduled. Our 
experience is that the Judiciary usually does not issue bench warrants 
based solely on the request of staff. Once a violation report is 
submitted, a violation hearing is scheduled based on the Judge's 
calendar (schedule) and can take from 30 to 60 days to be held. Once a 
violation hearing is scheduled, the Court notifies the offender and 
his/her attorney by mail of the scheduled date for the violation 
hearing. If the offender fails to report to the violation hearing on 
the scheduled date, the Judge will immediately issue a bench warrant 
for the offender's arrest. In cases where CSOSA staff are concerned 
that the offender poses a significant public safety risk, staff can 
request an expedited violation hearing from the Judiciary. On rare 
occasions, the Judge may issue a bench warrant, prior to a hearing, if 
the risk is deemed imminent. In instances of an expedited violation 
hearing, the hearing is usually set within a two-week timeframe. It has 
been our experience that the Judiciary honors CSOSA staff's request for 
a show cause hearing.
    Question. What is the rearrest rate for offenders under CSOSA 
supervision? How has that rate changed in the past year?
    Answer. In fiscal year 2003, the overall rearrest rate was 15 
percent (13 percent for probationers and 17 percent for parolees). The 
fiscal year 2002 arrest rate was 18 percent (21 percent for 
probationers and 13 percent for parolees).
                            reentry strategy
    Question. CSOSA has been working with various stakeholders to craft 
a Citywide Offender Reentry Strategy. Please describe the process and 
the status of implementation.
    Answer. Between December 2001 and April 2002, a group of community 
advocates, community-based service providers, and government agency 
representatives worked together to craft a comprehensive reentry 
strategy for adult offenders returning from incarceration to the 
District of Columbia. The primary participants in this process 
included:
  --Court Services and Offender Supervision Agency (CSOSA),
  --Office of the Deputy Mayor for Public Safety and Justice (DMPSJ),
  --Office of the Corrections Trustee,
  --D.C. Prisoners Legal Services Project,
  --D.C. Department of Corrections (DCDC),
  --D.C. Department of Mental Health (DMH), and
  --Federal Bureau of Prisons (BOP).
    The goal of the ``Comprehensive Reentry Strategy for Adults in the 
District of Columbia'', which was completed in June 2003, is to provide 
a detailed, long-range plan for an effective continuum of reentry 
services for D.C. offenders during incarceration, transition from 
incarceration to the community, and life in the community during and 
after supervision. In addition, the strategy proposes an agenda for 
reentry service provider quality assurance, community education about 
the relationship between public safety and effective reentry, and 
legislative priorities.
    The core of the strategy is the development of an assessment-driven 
reentry plan tailored to each offender's needs, strengths, and 
aspirations. The plan should remain with an offender through the three 
phases of reentry: institutionally based programs, transitional 
services, and community reintegration.
    In September 2003, five workgroups led by respected leaders from 
criminal justice system agencies and community-based organizations 
completed an Action Plan that sets an implementation timeline for the 
strategy. The strategy establishes ambitious goals for all parties 
involved, emphasizing that reentry services should be available to all 
offenders returning from some form of incarceration (jail or prison) to 
the community.
    Implementation requires coordination among Federal agencies 
involved in the local criminal justice system, local agencies, and 
community-based organizations. Improved pre-release planning provides 
represents the cornerstone process to build an effective, integrate 
reentry system. Pre-release planning begins with the functional 
assessment of the risk factors that define the intensity supervision if 
the offender leaves incarceration to parole or supervised release. The 
functional assessment also identifies needs that require intervention 
if an individual's risk factors are to be reduced in order to promote 
improved public safety.
    Implementation of the strategy involves broad participation by 
local, Federal, and non-profit agencies. The city will take a major 
step toward implementation this spring by opening the One Stop Reentry 
Service Center, which will provide subsidized job training and wrap-
around support services to an initial cohort of 165 adult offenders and 
40 juvenile offenders. Initial funding for the pilot year of the 
Service Center's operations will be provided through a Department of 
Justice grant. The Mayor plans to include in his fiscal year 2006 
budget a request for operating funds to sustain and expand the center.
    Question. What are the most critical needs of offenders under 
supervision? How are those needs being addressed, both by CSOSA and by 
the District of Columbia?
    Answer. Most offenders enter supervision with needs in the areas of 
employment/education and substance abuse. Over 50 percent of the 
offender population is unemployed, and about 60 percent tested positive 
for drug use at least once during fiscal year 2003. Approximately 4,100 
offenders tested positive two or more times for PCP, heroin, or cocaine 
in fiscal year 2003. Mental health issues may accompany and exacerbate 
these problems.
    Housing is also a critical need for many offenders. Often, the 
combination of unemployment and substance abuse leads to residential 
instability. The offender may leave prison with nowhere to go or may 
lose his or her residence due to drug use or financial issues. 
Underlying all these issues is the offender's need to develop healthy 
social relationships and to learn how to manage his or her time.
    The following table summarizes CSOSA's activities in each area of 
need and the District of Columbia agency responsible for each type of 
need. The table is adapted from the ``Citywide Reentry Strategy''.

------------------------------------------------------------------------
                                                       Responsibility of
          Area of Need              CSOSA Activity       City Agencies
------------------------------------------------------------------------
SUBSTANCE USE/HISTORY...........  Assess offender's   Addiction
                                   addiction           Prevention and
                                   severity.           Recovery
                                  Place offender in    Administration--(
                                   the appropriate     service capacity
                                   substance abuse     needs to expand
                                   treatment program   to address the
                                   (current            remaining needs
                                   appropriation       of the offender
                                   allows for CSOSA    population).
                                   to meet 16
                                   percent of the
                                   population's
                                   addition
                                   treatment need).
                                  Place offender in
                                   drug testing
                                   requirements.
                                  Enforce violations
                                   of behavioral
                                   contract.
EDUCATION/LEARNING DISABILITIES.  Conduct a Test of   State Education
                                   Adult Basic         Office in
                                   Education to        collaboration
                                   assess the          with the
                                   educational         University of
                                   functioning level   District of
                                   of individual       Columbia (service
                                   offenders.          capacity needs to
                                  Provide adult        expand to address
                                   basic education     the remaining
                                   programming at      needs of the
                                   one of four         offender
                                   learning labs       population).
                                   staffed by CSOSA
                                   learning lab
                                   specialists.
EMPLOYMENT......................  Conduct a Test of   D.C. Department of
                                   Adult Basic         Employment
                                   Education.          Services--Plans
                                  Assess offender's    are in place to
                                   vocational          utilize Serious
                                   aptitude and job    and Violent
                                   skills.             Offender Reentry
                                  Assist offender in   Initiative funds
                                   job search if he    to provide Life
                                   or she has          Skills, Job
                                   employment          Training, and
                                   history, an 8th     Placement
                                   grade reading       services to
                                   level or better,    approximately 150-
                                   and marketable      200 offenders
                                   job skills.         (additional
                                  Provide or make      employment
                                   referrals to city   training and
                                   agencies for        placement service
                                   adult basic         capacity is
                                   education           needed).
                                   services or
                                   referrals.
HOUSING.........................  Counsel offender    (Service capacity
                                   to seek a healthy   needs to expand
                                   residential         to address the
                                   environment;        remaining needs
                                   encourage           of the offender
                                   offender to move,   population).
                                   if necessary.
                                  Maintain listings
                                   of transitional
                                   housing options
                                   available through
                                   non-profit and
                                   faith community
                                   and refer as
                                   necessary.
MENTAL HEALTH...................  Refer offender to   Mental Health
                                   CSOSA contract      Psychological
                                   psychologist for    Evaluation--D.C.
                                   mental health       Department of
                                   screening to        Mental Health.
                                   determine need     Counseling,
                                   for more in-depth   community-based
                                   psychological       support services
                                   evaluation and      for offenders
                                   treatment.          with diagnosed
                                  Place offenders      mental health
                                   with diagnosed      disorders--D.C.
                                   mental health       Department of
                                   disorder or         Mental Health.
                                   Offender conforms
                                   to the norms of
                                   daily
                                   functioning,
                                   dress, appearance
                                   and behavior.
PHYSICAL HEALTH/DISABILITY......  Refer to D.C.       D.C. Department of
                                   Department of       Health--Primary
                                   Health.             Healthcare at
                                                       neighborhood
                                                       health clinics
                                                       operated by the
                                                       D.C. Health and
                                                       Hospital Public
                                                       Benefit
                                                       Corporation.
LEISURE TIME/SOCIAL               Counsel offender    (Service capacity
 RELATIONSHIPS.                    to develop pro-     needs to expand
                                   social hobbies      to address the
                                   and interests.      remaining needs
                                  If eligible, refer   of the offender
                                   for Faith           population).
                                   Community
                                   Partnership
                                   services,
                                   including
                                   mentoring.
------------------------------------------------------------------------

    Question. Supply the Committee with a description of CSOSA's faith-
based initiative, including the number of offenders who have 
participated in the initiative and any accomplishments to date. Are 
faith-based institutions also providing services to meet offenders' 
needs?
    Answer. CSOSA's faith-based initiative is a collaboration between 
the Agency and the District of Columbia's faith institutions. The 
initiative focuses on developing mechanisms through which offenders on 
supervision can establish permanent connections with the community's 
positive, pro-social institutions. Crime is inextricably linked to the 
individual's alienation from mainstream values. By overcoming that 
alienation, the faith community can help the offender replace negative 
associations and attitudes with positive contact and messages. 
Furthermore, the faith institution can address issues of personal 
accountability and change that are beyond the scope of community 
supervision. The church or temple cannot (and should not) replace law 
enforcement, but it can provide a permanent source of positive contact 
and moral guidance. The Community Supervision Officer represents 
external accountability by enforcing release conditions; the faith 
institution represents internal accountability by stressing spiritual 
growth. In addition, CSOSA recognized from the initiative's inception 
that the District's faith institutions provide many practical support 
services, such as tutoring, job training, food and clothing banks, 
personal and family counseling, and substance abuse aftercare. CSOSA 
wanted to ``tap into'' this important source of community-based 
programming in order to expand the range of support services available 
to offenders.
    The faith initiative's governing body is the CSOSA/Faith Community 
Partnership Advisory Council. Established in 2001, the Advisory Council 
membership represents a range of denominations; efforts are currently 
underway to broaden both the membership of the Council and its 
representational diversity.
    Late in 2001, CSOSA and the Advisory Council chose mentoring as the 
initial focus of the initiative to connect faith institution volunteers 
with offenders returning to the community from prison. A successful 
outreach event was held in January 2002, in which faith institutions 
across the city addressed the issue of reentry and issued a call for 
volunteers. Over 400 people attended our initial mentor information 
meeting in February 2002. Since then, the ``Reentry Worship'' event has 
become an annual citywide occurrence.
    CSOSA and the Advisory Council then established a structure through 
which the mentor program could be coordinated and faith institutions 
could provide services to offenders. The city was divided into three 
clusters, and CSOSA issued a Request for Proposals to establish a 
contractual relationship with a lead institution in each cluster. The 
lead institutions are: Cluster A (Wards 7 and 8)--East of the River 
Clergy/Police/Community Partnership; Cluster B (Wards 5 and 6)--Pilgrim 
Baptist Church; Cluster C (Wards 1, 2, 3, 4)--New Commandment Baptist 
Church.
    Each institution employs a Cluster Coordinator, who coordinates 
mentor and other service referrals and performs outreach to increase 
the involvement of faith institutions in the cluster.
    CSOSA also developed and implemented training programs for both 
mentors and the program coordinators at each faith institution. The 
training familiarizes prospective mentors with the structure and 
requirements of community supervision, the offender profile, and the 
program's administrative and reporting requirements, as well as 
providing role-playing exercise in which mentors encounter the 
challenges of mentoring. To date, approximately 200 mentors and 
coordinators from more than 40 institutions have been trained.
    The initial cohort of 24 returning offenders was ``matched'' with 
mentors in August 2002. Since then, the number of offenders in the 
program has grown to over 100. In 2003, CSOSA expanded the program to 
include inmates at the Bureau of Prisons' Rivers Correctional 
Institution in North Carolina. Rivers houses over 1,000 District of 
Columbia inmates. Thirty-three Rivers inmates were placed with mentors, 
who attended biweekly mentoring sessions conducted through video 
conference technology. All but four of the inmates have been released 
as of February 23, 2004.
    Mentoring remains just one facet of CSOSA's faith initiative. 
Through the cluster coordinators and site visits by CSOSA staff, 
outreach ministries and services have been identified. In addition, 
faith institutions have been directed to Federal, local, and 
philanthropic resources to upgrade their capacity for service. For 
example, CSOSA has verified the capacities and availability of the 
following outreach services:

------------------------------------------------------------------------
           Institution             Outreach Ministry  Available Capacity
------------------------------------------------------------------------
AP Shaw United Methodist........  Anger Management..  7 program slots.
Grace Apostolic.................  GED classes.......  Varies.
Paramount Baptist...............  Food and Clothing.  10-12 referrals
                                                       weekly.
SE Tabernacle...................  Job Services        30 referrals/
                                   Referrals.          month.
                                  Weekly support      Maximum 15 per
                                   group for Ex-       week.
                                   offenders.
Redemption Ministry.............  Job Training/       35 referrals per
                                   Placement.          class cycle.
                                  Substance Abuse     Ongoing capacity
                                   Counseling.         for 15 clients.
                                  Family Assistance   Varies according
                                   (housing,           to need.
                                   transportation).
------------------------------------------------------------------------

    Through grant funding from the U.S. Department of Justice, 
Community Oriented Policing Service (COPS), one of CSOSA lead faith 
institutions, New Commandment Baptist Church, is now able to facilitate 
and expand its ability to intercede, with CSOSA and other faith 
institutions, to improve the likelihood that participating parolees 
will have lower rates of recidivism. CSOSA's network of 
interdenominational faith-based participants will contribute to the 
success of this effort. Collaborating with the District of Columbia 
Jobs Partnership, New Commandment Baptist and other faith institutions 
are able to enroll returning offenders in job readiness training 
programs, educational and vocational training, interviewing skills and 
job placement.
    Another participating faith institution, East of the River Clergy/
Police/Community Partnership, has recently received a grant award from 
the U.S. Department of Labor to facilitate and place returning 
offenders into jobs which offer career opportunities. It is projected 
that the availability of this resource will substantially build the 
capacity of the District of Columbia to better serve the returning 
offenders and their families.
    From the enthusiasm of a core group of concerned citizens, the 
CSOSA faith initiative has grown to a citywide effort involving 
hundreds of individuals in a wide range of activities to support 
returning offenders. We look forward to the initiative's continued 
growth as a sustainable long-term resource that offenders can access 
both during and after their term of supervision.
    Question. Does CSP have specific programs to meet the needs of 
female offenders?
    Answer. Currently, CSP has several gender-specific programs to 
address the needs of female offenders. CSP contracts for residential 
placements in gender-specific residential programs, such as Demeter 
House, which treats chemically-addicted mothers, who may be accompanied 
by their children while in the program. The Substance Abuse and 
Treatment Branch also provides weekly in-house group sessions for 
women. In addition, the Transitional Intervention for Parole 
Supervision (TIPS) program has a community supervision officer on-site 
at the Fairview Community Corrections Center to assist women with 
reentry issues. The Fairview CCC also may be used for public law 
placements and as an intermediate sanction for high risk/needs women 
offenders.
    CSP is working to expand gender-specific programs. The expanded 
Reentry and Sanctions Center will contain a unit for female offenders. 
Additionally, a team of managers received training at the National 
Institute of Corrections Academy last year on implementing effective 
agency-wide programs for female offenders. The members of this team now 
are leading a work group to implement these strategies around such 
issues as victimization and trauma, mental health and medical problems, 
family and child rearing, and economic self-sufficiency. The Agency is 
working to:
  --Implement additional, in-house gender-specific group counseling 
        programs and training group facilitators;
  --Develop a comprehensive training curriculum that provides 
        information/tools for line staff and administrators to 
        effectively manage female offenders;
  --Compile a resource guide to ensure that Community Supervision 
        Officers are aware of, and have access to, available in-house, 
        community and government programs;
  --Work with our faith-based partners to female women offenders are 
        linked to mentors;
  --Strengthen partnerships with the many community organizations and 
        government agencies that provide services to this population; 
        and
  --Arrange child-care opportunities with our community partners to 
        allow female offenders to engage in programming and supervision 
        activities.
    Question. CSP last requested an increase in drug treatment funds in 
fiscal year 2002. Is this funding sufficient to meet the demand for 
treatment? What measures are in place to ensure that these resources 
are used most effectively? Is there any evidence that CSOSA drug 
treatment reduces drug use, rearrest, and recidivism in the District of 
Columbia?
    Answer. During fiscal year 2003, CSOSA's Office of Research and 
Evaluation estimated that there were over 4,100 chronic substance-
abusing offenders in need of treatment intervention. This estimate is 
based on the number of offenders who tested positive for cocaine, 
heroin or PCP two or more times. (Offenders testing positive for 
marijuana and/or alcohol are generally given intermediate sanctions and 
referred to in-house services.)
    Each offender, on average, requires three placements to satisfy 
treatment-programming requirements. For example, offenders with chronic 
substance abuse histories are most often referred to detoxification 
followed by residential and outpatient services. For the chronic drug-
using population, CSOSA would require the ability to make a minimum of 
12,300 substance abuse placements per year (4,100 offenders  3 
treatment placements).
    The fiscal year 2003 appropriation (approximately $8.6 million) 
enabled CSP to make 2,021 treatment placements. This addressed 16 
percent of the estimated requirement. To ensure that limited treatment 
funds are being used efficiently our treatment specialist staff 
performs a battery of assessments to determine the appropriate 
treatment recommendation for each offender.
    In fiscal year 2003, a data management system was introduced, which 
allowed automated tracking of the agency's treatment related data. 
Fiscal year 2003 was the pilot year for use of the automated tracking 
system and the system was modified and adjusted as required during the 
year. It is anticipated that data on the effectiveness of interventions 
will be available from the automated treatment tracking system within 
the next 6 to 9 months.
    Question. Does CSOSA contract for drug treatment services? How do 
you ensure that vendors are providing quality services?
    Answer. CSOSA currently contracts with 11 drug treatment vendors 
throughout the Washington metropolitan area. Quality Assurance 
Specialists routinely monitor each vendor to ensure that all treatment 
services are provided in accordance with national and local standards.
    Vendor monitoring occurs through compliance reviews and unannounced 
site visits. The compliance reviews are performed on an annual basis 
based on standards for treatment services. The areas subject to review 
include staffing, documentation, physical plant and administrative 
operations. Upon completion of the review, the vendors are provided 
with a time sensitive plan to correct any deficiencies. Subsequently, 
this plan is monitored through unannounced site visits to ensure 
compliance.
    In an effort to continue improving the quality of interventions 
provided by our drug treatment vendors, CSOSA also provides ongoing 
technical assistance.
    Question. What management strategies are employed for inmates on 
Special Supervision?
    Answer. Special Supervision is the rendering of comprehensive, 
treatment-oriented services, combined with intensive supervision, for 
those offenders assessed as ``special needs'' offenders. Special needs 
offenders include offenders convicted of sex crimes and crimes of 
domestic violence, those diagnosed with a mental illness, and those 
assessed with a substance abuse addiction. Programmatic improvements 
for special supervision populations continue to evolve. However, the 
increasing number of offenders presenting with co-ocurring disorders, 
combined with limited staff resources, continues to present challenges 
in providing comprehensive services for these populations.
                          special supervision
    Question. What do you do differently for Special Supervision 
Offenders than the General Supervision population?
    Answer. Special supervision offenders are high risk offenders. 
Immediately upon release to the community, ``special needs'' offenders 
are placed on an intensive or maximum level of supervision for the 
first 90 to 180 days, with weekly community and office contact, 
including urinalysis surveillance for illegal drug use. To closely 
manage these special supervision offenders, CSO's working with these 
caseloads have much smaller caseloads ratios than CSO's managing 
general supervision offenders. The Agency's target caseload supervision 
ratio for the ``Special Supervision'' teams is 25 offenders per CSO, 
versus 50 offenders per CSO for general supervision. This smaller ratio 
allows the special supervision CSO to provide close offender 
accountability, intensive counseling, treatment referrals, and tracking 
activities. The Agency is approaching the targeted caseload ratio, 
which will improve public safety.
    To ensure that all ``special needs'' offenders receive required 
services, a comprehensive referral, placement and assessment tracking 
system has been implemented for all sex offender, mental health, and 
substance abuse cases. These offenders are carefully screened to match 
appropriate treatment services with their needs. CSO's refer offenders 
to treatment groups on-site, as well as makes referrals to vendor-
provided treatment services, such as residential substance abuse 
treatment and sex offender treatment services. Also, sex offenders, 
depending on their classification level, are required to register with 
the Sex Offender Registry, every 90 days or once a year, for life, as 
determined by their conviction and the law. In fiscal year 2003, 185 
sex offender assessments and 42 polygraph examinations were conducted.
    Offenders convicted of a domestic violence offense participate in 
CSOSA-provided Domestic Violence Intervention Program (DVIP) or Family 
Violence Intervention Program (FVIP), if the offender is unable to 
afford private domestic violence counseling services. These group 
sessions also can include family members and, if appropriate, the 
victim of the offense and/or other interested community support 
persons. In addition, CSOSA offers individual counseling as needed. 
Those offenders who can afford to pay for private domestic violence 
treatment are closely monitored to ensure attendance and progress in 
treatment.
    Question. This committee included funds in CSOSA's fiscal year 2004 
appropriation for 27 new positions to provide for increased supervision 
of high-risk sex offenders, mental health cases, and domestic violence 
cases, as well as to expand the use of global positioning system (GPS)-
based electronic monitoring. GPS electronic monitoring employs state of 
the art technology to offender supervision and hold great promise for 
solving crimes and detecting offender movements or patterns that would 
enable CSOSA to take action before he or she commits more crime. This 
technology would appear to be a valuable tool for supervising all high-
risk offenders, and in particular, sex offenders and domestic violence 
offenders in which offenders are supposed to avoid certain locations, 
such as schools or specific residences.
    What is the status of implementing the special supervision 
initiative? When will the new officers be hired? When filled, what will 
the new caseload ratios be?
    Answer. Two new Special Supervision Teams start CSP's 6-week 
training academy on March 22, 2004. After these staff complete training 
and enter supervision duties, CSP caseload ratios for sex offender, 
mental health and domestic violence supervision will be reduced to 
approximately 29:1 (based on January 2004 cases). CSP is unable to hire 
additional staff from the fiscal year 2004 supervision initiative due 
to inadequate funding for these positions in our fiscal year 2005 
budget request. Simply, CSOSA cannot support all 27 staff in fiscal 
year 2005 with the resources contained in our fiscal year 2005 budget. 
If all staff from the fiscal year 2004 special supervision initiative 
were hired, these high-risk caseload ratios would decrease to 25:1.
    Question. What is the status of implementing the GPS system? What 
criteria do CSOSA use to determine which offenders are placed under 
electronic or GPS monitoring? Using these criteria, how many offenders 
would be placed on GPS at any given time? How many offenders are 
currently under GPS monitoring?
    Answer. CSOSA currently is piloting Global Positioning System (GPS) 
electronic monitoring technology to monitor movement of the highest 
risk offenders in the community. Primarily used as a tool to monitor 
sex offenders, CSOSA also utilizes GPS to monitor high risk domestic 
violence offenders. These populations generally have stay away orders 
from people or places within the community, and GPS has shown promise 
to be a useful tool to monitor compliance with these conditions. GPS 
allows CSOSA to place strict curfews on offenders, as well as to 
establish ``exclusion zones,'' which are areas or addresses the 
offender is prohibited from entering. Offenders who are placed on this 
type of electronic monitoring generally have violated conditions of 
their supervision, and the GPS is used when other intermediate 
sanctions have been exhausted. Additionally, offenders whom CSOSA deems 
particularly high risk, due to their originating offense or suspicion 
that the offender may be re-offending, also may be placed on GPS 
monitoring. Offenders who are under parole or supervised release 
supervision may be placed on GPS electronic monitoring at CSOSA's 
discretion. In probation cases, CSOSA must obtain a court order, 
modifying the offender's supervision conditions, in order to place the 
offender on GPS monitoring.
    Since April 8, 2004, 51 offenders have been placed in the GPS pilot 
at a cost of $6.00 per day, per offender. Currently, 9 offenders are 
under GPS. Using CSOSA's criteria, above, for placing sex offenders, 
domestic violence offenders, and other high risk offenders under GPS, 
the Agency estimates that the following number of offenders could be 
placed under GPS in fiscal year 2004:

------------------------------------------------------------------------
                                                          No. Offenders
                   Fiscal Year 2004                         Under GPS
------------------------------------------------------------------------
October-December, 2003................................                 0
January-March, 2004...................................                12
April-June, 2004......................................                30
July-September, 2004..................................                60
------------------------------------------------------------------------

    The system currently piloted by CSOSA is a passive one, which means 
CSOSA is notified of violations by e-mail the next business day 
following the violation. Some violations also may be reported to our 
sex offender supervision staff by cell phone. At any time, our staff 
also may link to the GPS system and track real-time the offenders who 
are in the program. However, CSOSA is not a 24-hour law enforcement 
Agency and does not have the resources available to respond immediately 
to each violation.
    Through future collaborations with the Metropolitan Police 
Department (MPD), it is CSOSA's goal to provide MPD with the ability to 
respond immediately to GPS electronic monitoring violations of CSOSA 
offenders as the violations occur. Additionally, the GPS data can be 
linked to MPD crime data to assist law enforcement to determine if 
offenders on GPS tracking were at or near reported crime sites.
    Currently, CSOSA contracts for GPS services with Veridian, which is 
a component of General Dynamics. The hardware used for monitoring is 
provided by PRO TECH Monitoring, Inc. CSOSA uses Veridian, instead of 
direct contracting with PRO TECH Monitoring, Inc., because Veridian 
offers several advantages that PRO TECH Monitoring, Inc. does not 
currently offer, such as:
  --Web based access to the data;
  --Linkage with police crime data; and
  --The ability to change hardware if a new, more advanced, efficient, 
        or cost-effective product enters the market with another 
        company, other than Pro Tech.
    Question. Is the GPS technology being used for defendants?
    Answer. No. However, if resources become available, the Pretrial 
Services Agency would pilot this type of monitoring for high-risk 
defendants with court orders to stay away from particular persons or 
places.
                          information systems
    Question. What is the status of CSP's offender case management 
system, for which funding was provided in fiscal year 2002?
    Answer. Initially deployed in January 2002, the Supervision and 
Management Automated Records Tracking System (SMART) replaced an 
unreliable and outdated legacy system. SMART has provided the Agency 
with an efficient and accurate method for tracking supervision 
activities, improving supervision management and reporting, and 
enhancing management of the treatment process for offenders.
    Since the supervision module's initial release, many features and 
modules have been added to SMART. A treatment module has been 
implemented to track each offender's progress, as well as a related 
module that allows treatment vendors to verify attendance at scheduled 
outpatient sessions. This integrated treatment module not only 
encompasses the tracking of offender treatment activities, but also 
manages all treatment-related financial transactions. In addition, 
CSOSA now has the capability to electronically transmit Pre-Sentence 
Investigation (PSI) reports directly to the Superior Court and the 
Assistant United States Attorney's Office. Current modules under 
development will provide automatic notification when the Metropolitan 
Police Department arrests an offender under supervision, as well as the 
revised screener and the prescriptive supervision plan.
    In order to continue the significant improvements in offender 
supervision, CSOSA needs to continue enhancing SMART's capabilities. 
The current intake procedure involves the manual process of entering 
sentencing information from both the Courts and the Bureau of Prisons 
(BOP). The proposed Intake Module would streamline this function by 
automating the transfer of sentencing information directly from the 
Courts and the Bureau of Prisons, as well as electronic Notices of 
Actions from the U.S. Parole Commission. Automatic transmission of 
sentencing information would ensure that CSOSA receives the sentencing 
information for each offender. Additional proposed enhancements also 
include:
  --Wireless mobile computing to provide officers with access to the 
        SMART application while performing supervision in the 
        community;
  --Biometrics to provide a fail-proof method for identifying offenders 
        reporting for drug testing or drug treatment programs;
  --Archiving and expunging case records in accordance with Federal 
        regulations;
  --Additional interagency data sharing with both local and Federal law 
        enforcement agencies; and
  --Improved management and operational reporting using Business 
        Objects to ensure the effective supervision and allocation of 
        resources to attain the Agency's critical success factors.
    Without these technological enhancements, it will be very difficult 
for CSOSA to continue its forward momentum in improving public safety 
through close supervision.
    Question. Are CSOSA information systems integrated with other law 
enforcement systems? Are CSOSA systems secure from hackers?
    Answer. CSOSA has aggressively implemented internal process 
automation, remote connectivity to external criminal justice data 
repositories, and justice data exchange. The information collected and 
managed by SMART is requested by local and national law enforcement 
agencies. The Agency has established data exchange agreements with 
several local and Federal law enforcement agencies. Criminal justice 
data is currently being exchanged with the Metropolitan Police 
Department, the Pretrial Services Agency, the District of Columbia 
Department of Corrections, the United States Attorney for the District 
of Columbia, the District of Columbia Department of Corrections, the 
U.S. Parole Commission, the Federal Bureau of Prisons, and the Federal 
Bureau of Investigations. The fulfillment of the Agency's mission is 
contingent on obtaining timely and accurate information from law 
enforcement agencies. Interagency data exchange provides the necessary 
criminal data for preparation of Pre-Sentence Investigation reports 
(PSI), Alleged Violation Reports (AVR), Warrants, and Notices of Action 
(NOA's) to improve offender supervision, and ways to control crime and 
improve the safety of the public.
    While CSOSA facilitated some initial electronic data exchange 
agreements with other agencies, it is crucial to establish additional 
exchange processes with the other law enforcement entities, such as the 
Courts. SMART is capable of receiving data from other entities, yet 
other agencies systems are not always postured to participate in the 
data exchange process.
    The successful deployment of SMART, and the initial data exchange 
communication with other agencies, has moved the Agency closer to 
accomplishing our strategic goals. As we increase our data exchange 
capability with other law enforcement agencies, the need to enhance 
security measure increases. To continue this forward movement, it is 
imperative that CSOSA systems, data and infrastructure be secure. CSOSA 
continues to make strides in addressing IT security. We have developed 
an IT Security Master Plan, established an Incident Response Team, IT 
Security and Patch Management Working Groups, however more work must be 
accomplished to ensure a secure information technology environment.
    SMART is a critical Agency system that must be secure. As the 
sophistication of hackers advance, CSOSA must enhance the capability to 
protect Agency resources to ensure that measures can be taken to fend 
off attacks and exploits. The challenge of managing new exploits and 
adherence to emergent Federal regulations (FISMA, A-130 etc.) requires 
a vigilant IT Security Program. CSOSA must implement an IT Security 
tool set to include enhanced WEB scanners, network intrusion software, 
and e-authentication devices. Also, the implementation of the IT 
Security Master Plan is necessary to comply with FISMA and/or 
regulatory requirements. The successful implementation of an Agency IT 
Security Program is dependent on identifying adequate resources to 
secure the Agency's information technology resources and comply with 
regulatory requirements.
    Question. CSOSA's fiscal year 2002 appropriation included 
$13,015,000 in no-year funds to renovate Karrick Hall or some other 
facility for use as CSOSA's Reentry and Sanctions Center. What is the 
status of the renovations?
    Answer. In September 2002, CSOSA signed a long-term lease with the 
District of Columbia for the use of Karrick Hall as CSOSA's Re-entry 
and Sanctions Center. Also, in September 2002, the city government was 
developing a Master Plan for the D.C. General Hospital Campus, 
including negotiating a transfer of control of the land from the 
Federal Government to the D.C. Government. CSOSA worked closely with 
the D.C. Government and the community throughout these planning 
processes. In July 2003, we reached agreement with the city to proceed 
with the renovation of Karrick Hall. A contract for Architectural and 
Engineering Design and Construction Management was signed in September 
2003.
    Karrick Hall is an eight-story, 60,000 square foot building and 
since 1996, has been the home of the Assessment and Orientation Center. 
The AOC program is a model program CSOSA now operates in partnership 
with the Washington Baltimore High Intensity Drug Task Force program, 
also known as HIDTA. When Karrick Hall is complete, the AOC will become 
CSOSA's Reentry and Sanctions program.
    On February 27, 2004, the AOC vacated Karrick Hall and moved into a 
temporary location at 1301 Clifton Street, NW. The AOC will be at 1301 
Clifton until the renovation is complete, in the spring of 2005. While 
at 1301 Clifton, the AOC will expand its program from 18 beds to 27.
    Karrick Hall is a 60,000 square foot eight-story building 
constructed on the grounds of the D.C. General campus circa 1961. The 
renovations include:
  --Replacing the building's infrastructure (installing all new 
        plumbing, electrical, windows and exterior architectural 
        features as well as new heating and air condition systems and 
        fire systems);
  --Installing two new elevators in place of the existing units; and
  --Installing new restrooms and ensuring all new systems meet the 
        requirements of the Americans with Disabilities Act and other 
        handicap accessibility requirements.
    When complete, the Reentry and Sanctions Center will expand to 108 
beds, which will service 1,200 offenders and defendants annually. The 
program will include 4 male units, one unit dedicated to females and 
one unit for the dually diagnosed.
    We are very excited about this initiative because the AOC program 
has a proven track record of success. A study conducted by the 
University of Maryland in May 2002 found there was a 74 percent 
reduction in re-arrests 1 year following completion of the AOC program. 
Expanding the capacity of this program has obvious positive impacts on 
public safety and quality of life.
                      reentry and sanctions center
    Question. Does CSOSA's fiscal year 2005 budget include funding for 
the expanded operation of Reentry and Sanctions Center?
    Answer. CSOSA's budget request includes only partial-year funding 
for fiscal year 2005 because the building renovation will not be 
complete until spring 2005. Fiscal year 2006 will be the first full 
fiscal year that all six units at Karrick Hall will be fully 
operational. The full-year operating cost in fiscal year 2006 will be 
approximately $18 million. To fund complete, annual operations would 
require an increase in fiscal year 2006 of approximately $5.5 million.
    Question. Does CSOSA perform independent audits of its budget and 
finances? What are the results of such audit, including audit findings 
and status of corrective actions?
    Answer. Although not required by the Chief Financial Officers Act 
or other Federal law or regulation, since inception CSOSA's Funds 
Control policy required an annual audit of our budgetary financial 
statement (Statement of Budgetary Resources). The auditing firm of 
PriceWaterhouseCoopers (PWC) LLP has conducted four independent audits 
of CSOSA's Statement of Budgetary Resources since Agency inception. In 
each audit, no material weaknesses were identified and CSOSA received 
unqualified opinions. The audit of CSOSA's fiscal year 2002 Statement 
of Budgetary Resources successfully concluded in September 2003. Thus 
far, the only finding raised has been concerns about our ability to 
fulfill new and much more stringent standards resulting from 
legislation enacted in 2002.
                          financial management
    Question. Please elaborate on the new legislation and standards 
affecting CSOSA's financial management.
    Answer. The Accountability of Tax Dollars Act of 2002 (Public Law 
107-289) establishes new requirements in the area of financial 
management for all small agencies. These are the same financial and 
audit requirements which the larger cabinet level agency have been 
subject to for the past several years. The Act requires all executive 
agencies, regardless of size, to prepare and audit six financial 
statements versus the one Statement of Budgetary Resources currently 
prepared and audited by CSOSA. This will increase the scope of audit 
coverage and will require CSOSA to implement additional policies, 
systems and procedures in many areas. The changes are all positive 
steps in improving stewardship of taxpayer dollars, but CSOSA is 
struggling to put the proper infrastructure in place. It will take time 
and additional resources.
    Question. Does the fiscal year 2005 budget include the request for 
financial resources to comply with the new laws affecting financial 
management, and if not, what is the cost and how will you deal with the 
problem?
    Answer. We estimate the Agency-wide cost (including the Pretrial 
Services Agency) to be $980,000 and we will no choice but to divert 
funding from programs such as supervision, treatment or employee 
training.
    Question. Within the past 2 weeks, the Washington Post reported on 
the arrest of a repeat sex offender who is suspected of several rapes, 
as well as molesting a 12-year-old girl. The Post also reported that 
Superior Court had sentenced the man to probation several months prior 
to the recent assaults but procedural errors resulted in this sex 
offender being unsupervised by CSOSA. Do you understand the full extent 
of the problems that caused this to happen? Please describe how such 
errors could have been avoided, or could be prevented in the future, 
including any resources that may be necessary.
    Answer. CSOSA has closely examined this case. The exchange of data 
between Superior Court and CSOSA needs to be improved by increasing 
automation. These automated changes may require the Clerk's office to 
modify its existing business processes. CSOSA also needs to institute 
some operational changes within our Offender Intake program. We have 
short-term fixes in place in our attempt to ensure that we receive 
probation grants from the Court and input all intake data into SMART. 
However, we recognize the need for permanent solutions in terms of both 
automation and the enhancement of our Offender Intake operation. We 
recently completed a comprehensive review of the Offender Intake 
operation. The review defined organizational and procedural changes 
that would enhance the operation's efficiency. The review very clearly 
stated the need for additional resources, but more analysis is needed 
to accurately quantify the impact. Funding for these improvements has 
not been requested in the fiscal year 2005 budget.
    Question. Provide the number of D.C. inmates in each Federal Bureau 
of Prisons facility by gender.
    Answer.

  DISTRICT OF COLUMBIA INMATES IN THE FEDERAL BUREAU OF PRISONS (AS OF
                           FEBRUARY 25, 2004)
------------------------------------------------------------------------
                                                       Facility   State
State            Facility             Males   Females    Total    Total
------------------------------------------------------------------------
   ALTalladega FCI                      19  .......        19       19
   ARForrest City FCI                    1  .......         1        1
   AZPhoenix FCI                         2  .......         2        2
   CAAtwater USP                        19  .......        19  .......
   CADublin FCI                          0        6         6  .......
   CATerminal Island FCI                 1  .......         1  .......
   CAVictorville Med FCI                 2  .......         2       28
   COFlorence ADMAX USP                 28  .......        28  .......
   COFlorence FCI                        4  .......         4  .......
   COFlorence High USP                  29  .......        29  .......
   CODenver CCM                          1  .......         1       62
   CTDanbury FCI                         0       84        84       84
   DCD.C. Community Corrections        199       20       219      219
   FLColeman Med                        24        1        25  .......
   FLColeman USP                       182  .......       182  .......
   FLMarianna FCI                        9  .......         9  .......
   FLMiami FCI                           1  .......         1  .......
   FLPetersburg FCI                     48  .......        48  .......
   FLTallahassee FCI                     1       16        17      282
   GAAtlanta USP                       354  .......       354  .......
   GAJesup FCI                          19  .......        19      373
   ILGreenville FCI                     13  .......        13  .......
   ILMarion USP                         28  .......        28  .......
   ILPekin FCI                           4  .......         4       45
   INTerre Haute USP                   193  .......       193      193
   KSLeavenworth USP                   218  .......       218      218
   KYAshland FCI                         6  .......         6  .......
   KYLexington FMC                      20       10        30  .......
   KYManchester FCI                     32  .......        32       68
   LAOakdale FCI                         1  .......         1  .......
   LAOakdale FDC                         3  .......         3  .......
   LANew Orleans CCM                     1  .......         1        5
   MADevens FMC                         38  .......        38  .......
   MABoston CCM                          1  .......         1       39
   MDCumberland FCI                    214  .......       214  .......
   MDBaltimore Community                26        2        28      242
      Corrections
   MIMilan FCI                           3  .......         3  .......
   MIDetroit CCM                         1  .......         1        4
   MNRochester FMC                      18  .......        18  .......
   MNSandstone FCI                       1  .......         1  .......
   MNMinneapolis CCM                     3  .......         3       22
   MOSpringfield USMCFP                 61  .......        61       61
   MSYazoo City FCI                      2  .......         2        2
   NCButner FMC                         65  .......        65  .......
   NCButner Low                         17  .......        17  .......
   NCButner Med                         48  .......        48  .......
   NCSeymour Johnson FPC                11  .......        11  .......
   NCMcRae CI                           18  .......        18  .......
   NCRivers CI                       1,119  .......     1,119  .......
   NCRaleigh CCM                         2  .......         2    1,280
   NJFairton FCI                       109  .......       109  .......
   NJFort Dix FCI                       44  .......        44      153
   NYBrooklyn MDC                        5  .......         5  .......
   NYOtisville FCI                      63  .......        63  .......
   NYRay Brook FCI                      39  .......        39      107
   OHElkton FCI                          9  .......         9        9
   OKEl Reno FCI                         3  .......         3  .......
   OKOklahoma City FTC                  30  .......        30       33
   ORSheridan FCI                        2  .......         2        2
   PAAllenwood Low                      10  .......        10  .......
   PAAllenwood Medium                   95  .......        95  .......
   PAAllenwood USP                     259  .......       259  .......
   PALewisburg USP                     258  .......       258  .......
   PALoretto FCI                         3  .......         3  .......
   PAMcKean FCI                         85  .......        85  .......
   PAPhiladelphia FDC                   21        9        30  .......
   PASchuylkill FCI                    145  .......       145  .......
   PAPhiladelphia CCM                    2        1         3      888
   SCEdgefield FCI                     125  .......       125  .......
   SCEstill FCI                         49  .......        49      174
   TNMemphis FCI                        31  .......        31  .......
   TNNashville CCM                       1  .......         1       32
   TXBeaumont Low                        3  .......         3  .......
   TXBeaumont USP                       46  .......        46  .......
   TXCarswell FMC                        0       16        16  .......
   TXFort Worth FMC                      7  .......         7  .......
   TXTexarkana FCI                       1  .......         1  .......
   TXThree Rivers FCI                    1  .......         1       74
   VALee USP                           409  .......       409  .......
   VAPetersburg Med FCI                281  .......       281      690
   WIOxford FCI                          4  .......         4        4
   WVAlderson                            0       67        67  .......
   WVBeckley FI                        161  .......       161  .......
   WVBig Sandy USP                     147  .......       147  .......
   WVGilmer FCI                        235  .......       235  .......
   WVMorgantown FCI                     87  .......        87      697
                                  --------------------------------------
           TOTAL                     5,880      232     6,112    6,112
------------------------------------------------------------------------

                                                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                               
                        pretrial services agency
    Question. According to the fiscal year 2005 Pretrial Services 
Agency budget submission, the current caseload for defendants who are 
``extensively supervised'' is 127:1. What types of charges are included 
in ``extensively supervised'' cases, what type of supervision is 
provided, and what, if any, implications does this have for public 
safety? If this is not the appropriate caseload ratio, what is? What, 
if any, resources are needed to achieve public safety goals? What 
changes to supervision practices would be expected if caseloads were 
reduced?
    Answer. Within the General Supervision program, defendants who pose 
a higher level of risk to community safety or of not returning to Court 
are classified as in need of ``extensive supervision.'' Defendants who 
fall into this category have been charged with a wide range of 
offenses--from misdemeanors to dangerous and violent felonies. Many of 
the felony defendants are eligible for pretrial detention based on 
their charge (i.e., robbery, burglary, possession with intent to 
distribute), but the Court has determined that placement in the 
community under extensively supervised release conditions should 
initially be ordered. The Court's expectation is that, in order to 
ameliorate the risk to public safety while on pretrial release, 
conditions such as drug testing and regular reporting will be closely 
supervised by PSA.
    With the current high caseload ratios, PSA is not able to provide 
the supervision expected by the Court or required by PSA's internal 
policies and procedures. In fiscal year 2002, General Supervision 
Pretrial Service Officers (PSO's) were unable to respond to over half 
of defendants' condition violations, such as noncompliance with drug 
testing and contact requirements. Currently, PSO's often cannot respond 
quickly to violations of release conditions and, in many instances, 
defendants are testing positive for illegal drugs for many months until 
they have a court date where the PSO is finally able to respond. This 
is particularly troubling with high risk felonies pending indictment, 
where the first court date after the preliminary hearing is often many 
months after the defendant has been released to PSA. During that time, 
because the PSO's are ``managing'' their caseloads on the basis of 
court dates rather than providing extensive supervision, warrant checks 
and criminal records checks are not regularly done to see if defendants 
have been arrested again in a neighboring jurisdiction while on 
release. Curfew conditions are not monitored by visits to defendants' 
homes. Treatment or employment opportunities are not pursued. In short, 
these higher risk defendants are not being appropriately supervised, at 
considerable risk to public safety.
    Information provided by two neighboring Federal pretrial districts 
under the Administrative Office of the U.S. Courts indicates that their 
caseloads average between 42:1 and 64:1 (Eastern District of Virginia 
42:1, District of Maryland 64:1). If PSA were to reduce extensive 
supervision caseloads to 60:1, it would require the following 
resources:

                         PSO'S REQUIRED FOR CASELOADS AT 60:1 (AVERAGE MARCH-JUNE 2003)
----------------------------------------------------------------------------------------------------------------
                                                                             Current     Additional
                    Extensive Supervision                        Cases        PSO's       Required    PSO Total
                                                                           (121:1) \1\    for 60:1       60:1
----------------------------------------------------------------------------------------------------------------
Felony......................................................        1,346           11           11           22
Violent Misdemeanor.........................................          412            3            4            7
Domestic Violence...........................................          547            5            4            9
Nonviolent Misdemeanor......................................        1,338           11           11           22
                                                             ---------------------------------------------------
      Total.................................................        3,643           30           30           60
----------------------------------------------------------------------------------------------------------------
\1\ Caseloads fluctuate over the year depending on whether the Court orders ``extensively supervised'' or
  monitored conditions. This depends on the risk level of the particular defendant. The Extensive Supervision
  breakdown reflects an average from March through June, 2003 when the ratio was 121:1. The 127:1 ratio
  addressed in the question represents the period from March through September, 2003.

    With additional resources, pretrial services officers would be able 
to initiate case management of defendants with extensive supervision 
conditions. Supervision plans would be established that would include 
the following:
  --provide orientation with defendants so that they are advised about 
        supervision/program requirements;
  --assess defendant's needs and risks by reviewing the bail report/
        risk assessment and by completing a social services needs 
        screener;
  --conduct regular warrants and criminal history checks to ensure 
        there has not been a rearrest in a neighboring jurisdiction 
        while on release;
  --assess and refer defendants for substance abuse, mental health 
        needs, or social services where appropriate and resources 
        permit;
  --execute contracts for sanctions-based substance abuse treatment 
        where appropriate and resources permit;
  --monitor conditions of release throughout the case so that non-
        compliance can be reported expeditiously to the court instead 
        of only on court dates;
  --respond expeditiously to non-compliance with release conditions 
        through sanctions or referral to appropriate resources such as 
        treatment or a request for judicial action;
  --respond to non-compliance with drug testing after three drug 
        testing infractions within 30 days rather than only on court 
        dates;
  --report to the court and investigate loss of contact with the 
        defendant; and
  --administer and recommend incentives where appropriate.
    Question. Many Federal agencies have not received full funding for 
pay raises in the last several years. What impact does this have on the 
Pretrial Services Agency's ability to meet program goals?
    Answer. Pretrial Services Agency's ability to accomplish our 
program goals relating to Risk and Needs Assessment, Close Supervision, 
Treatment and Services, and Partnerships is directly tied to our 
ability to hire our authorized 325 FTE. Since our certification as an 
independent entity within CSOSA in August of 2000, PSA has experienced 
significant but mission-essential program growth in the areas of staff 
and contract treatment. During this short period of time, PSA has been 
very successful in incrementally establishing the necessary 
infrastructure to support our growing FTE level; and now we need to 
maintain this FTE level to successfully provide front-line services to 
defendants and accomplish our mission.
    By fiscal year 2005, the cumulative impact of the unfunded pay 
raise increment, the difference between the President's Budget and 
Congress's enacted authorization, could well be over 5 percent of 
payroll, or over $1 million. As a small agency where approximately 72 
percent of our fiscal year 2005 funding goes into salaries and 
benefits, there are few options to address this increment beyond 
reducing staffing or reducing treatment dollars, which directly impacts 
the achievement of program goals. For example, with the option utilized 
this fiscal year, fiscal year 2004, approximately 16 positions were not 
filled until February to help address the fiscal year 2004 pay raise 
increment of 2.1 percent, or $565,000 (difference between 2.0 percent 
in the budget and the 4.10 percent actual).
    Conversely, reducing available FTE will incrementally increase 
supervision caseload ratios. Higher caseload ratios, particularly in an 
area such as General Supervision, where the ratios are already too 
high, can only cause increased concern for public safety. For fiscal 
year 2005, to address the potential unfunded pay raise increment of 
approximately 1.8 percent, or $486,000.00 (difference between the 1.5 
percent in the budget and the possible parity pay with DOD at 3.5 
percent), PSA will be confronted with not being able to fill vacancies 
and/or a reduction in contract treatment funding.
                            community court
    Question. What is the role of PSA with the D.C. Superior Court's 
Community Court? Does PSA have resources that are adequate to support 
this initiative?
    Answer. The District of Columbia Superior Court launched the East 
of the River Community Court (ERCC) in September 2002, and it was 
expanded in the fall of 2003. The ERCC shifted case management from a 
traditional case processing orientation to a problem-solving system of 
supervision. The general philosophy of the Court is grounded in a 
therapeutic and restorative justice model, incorporating an active 
connection with the community. Problem-solving is achieved by assessing 
individual needs and tailoring meaningful solutions through drug 
testing, substance abuse treatment, job training, other social services 
and community service. PSA assessment and supervision practices have 
been modified to respond swiftly and frequently to assist the Court in 
making informed decisions about release conditions intended to problem-
solve individual need and to assure appearance in court and public 
safety. Accountability is enforced by PSA to improve the defendant's 
sense of value to the community, as well as to prevent the defendant 
from becoming involved in further criminal behavior. Today, a few PSO's 
within the General Supervision program are supervising 482 defendants 
released through the ERCC, and 433 of those defendants have a drug 
testing condition.
    Managing individual needs of defendants processed through the ERCC 
involves a labor-intensive effort by PSO's. Defendants who opt for 
trial or agree to diversion are released with a variety of release 
conditions intended to support problem-solving. PSO's spend added time 
with defendants attempting to instill a desire for self-improvement and 
community awareness while maintaining the system's requirements of 
assuring defendants' return for court dates and safety of the 
community. In some instances, PSA supervises dual sets of release 
requirements for an individual defendant. Diversion agreements with the 
prosecutor and court-ordered release conditions are simultaneously 
imposed and fashioned to promote personal change. The PSOs' 
productivity levels are increased by the two sets of release 
requirements and the types of conditions imposed. Defendants need time 
to modify negative behaviors or to make retribution to the community 
through community service. As a result, the supervision period is 
lengthened. Non-compliance with problem-solving strategies prolongs the 
length of a case as PSO's attempt to work with defendants for 
successful outcomes. When defendants succeed at diversion, prosecutors 
prefer to keep their cases open for an extended period to ensure 
continuing compliance. Defendants who fail diversion opportunities and 
request a trial automatically extend the pretrial supervision period.
    PSA resources are not adequate to effectively continue under the 
community court model. Although the Court would like to expand the 
reach of the community court to other districts beyond 6D and 7D, PSA 
does not have sufficient staff or treatment dollars to support such an 
expansion. Misdemeanor cases that usually average 170 days can end up 
on the court docket for longer periods, sustaining the need for PSA 
oversight and treatment funds. Resources are stretched thin to cover 
the variety of release requirements, to manage the high-maintenance 
nature of problem-solving, and to prolong supervision to promote 
successful outcomes or to support a second period of supervision.
                             drug treatment
    Question. PSA last received an increase in contract drug treatment 
funding in fiscal year 2002 to address the defendant population. How 
many defendants have drug use problems? To what extent is this funding 
sufficient to meet the demand for treatment? What controls are in place 
to ensure that these resources are used most efficiently and 
effectively?
    Answer. PSA cannot currently meet the entire substance abuse 
treatment need in its supervision population. Although defendants 
frequently are not under pretrial supervision for the period of time 
necessary to complete an entire treatment regime (placement in 
detoxification, residential and outpatient treatment sometimes followed 
by transitional housing), it can reasonably be expected that the 
typical defendant in need of treatment would receive up to two 
placements while under PSA supervision.
    During fiscal year 2003, there were approximately 3,700 defendants 
who had at least three drug testing violations while under pretrial 
supervision. Defendants are referred for comprehensive substance abuse 
assessments after three positive drug tests, and approximately 96 
percent of those assessments reflect a need for treatment. PSA drug-
using defendants in fiscal year 2003 needed approximately 7,104 
substance abuse treatment placements (3,700 defendants  2 treatment 
placements each @ 96 percent). In-house and contract treatment 
placements totaled 1,958 in fiscal year 2003, and 215 additional 
substance abuse placements were made with externally funded community-
based providers, a total of approximately 31 percent of the potential 
need. These placements served approximately 1,200 defendants.
    PSA has established and implemented significant best practice 
controls consisting of both manual and automated processes to ensure 
that the application of contract drug treatment funding is efficiently 
and effectively optimized.
    PSA has an active contract treatment services quality control 
program in place, and quality assurance of the services is written into 
the contracts by the incorporation of the D.C. Department of Health 
standards for drug treatment facilities. Quality is a major evaluation 
factor in awarding the treatment services contracts. Each offeror is 
required to submit a quality assurance plan for providing services to 
PSA. The treatment facilities must be certified under the D.C. 
standards for a treatment facility, and evidence of that certification 
is required for award of the contracts. The treatment services 
contracts are closely monitored by the Treatment Branch, Contract 
Treatment Services Unit, Contracting Officer Technical Representatives 
(COTR's). The COTR's make scheduled and unscheduled site visits to the 
treatment facilities, inspecting the services provided and utilizing a 
quality assurance plan and checklist to ensure compliance with the 
contract terms and conditions. Issues, or potential issues, resulting 
from site visits are immediately coordinated with a PSA Contract 
Officer and addressed with the respective vendors.
    Initial treatment placements are made by the COTR's utilizing an 
automated Task Order writing subsystem, which is an on-line, real-time 
application integrated with PSA's case management system for defendants 
and the internal funds control system, producing timely, reliable, and 
accurate information. Treatment vendor invoices are received by PSA's 
Accounting Section and reconciled with the automated Task Order writing 
subsystem. This process allows for continuous maximum use of available 
funds. For defendants who are placed on probation, the COTR's 
coordinate with CSOSA to transfer the defendants into the CSP offender 
supervision program without interruption of treatment services or 
creating duplicate obligations.
    Question. How many defendants did the Pretrial Services Agency 
supervise over the course of fiscal year 2003? What was the rate of 
rearrest for pretrial defendants while under the supervision of the 
agency? What is the rearrest rate for drug users in contrast to non-
drug users?
    Answer. In fiscal year 2003, the Pretrial Services Agency 
supervised a total of 20,948 defendants. These defendants represent 
26,589 cases, meaning that some defendants have multiple cases and have 
been placed on pretrial release and supervised more than once. This may 
occur when a defendant is on release in one case and is rearrested on a 
different case, either during the period of pretrial supervision, or 
after the defendant's period of supervision is over.
    Twelve percent of PSA's defendant population was rearrested at 
least once during the period of pretrial supervision. As would be 
expected from the research documenting the links between drug use and 
crime, drug-using defendants (defined as those with at least one 
positive drug test) have higher rearrest rates than non-drug using 
defendants. In fiscal year 2003, 17 percent of drug-using defendants 
were rearrested as compared to only 2 percent of non-drug using 
defendants.
    The fiscal year 2003 rearrest rate is marginally lower than the 
rates from the previous 2 years. In fiscal year 2001, the rearrest rate 
for all defendants was over 13 percent, with 19 percent of drug-using 
defendants rearrested, and a little over 6 percent of non-drug using 
defendants rearrested. In fiscal year 2002, the overall rearrest rate 
was over 14 percent, with over 20 percent of drug-using defendants 
rearrested, and 7 percent of non-drug using defendants rearrested.
    Question. What is the status of PSA's defendant case management 
system?
    Answer. Version 1.0 of PRISM, Pretrial's case management system, 
was deployed in March, 2002. This release supported all aspects of 
defendant supervision, case management, drug test results, and 
substance abuse treatment. Version 1.5 was deployed in January, 2003, 
and added automated case assignment and task management functions. 
Version 2.0 development effort will be completed during the 4th quarter 
of fiscal year 2004. Staff training will begin in fiscal year 2004 with 
deployment slated for 1st quarter, fiscal year 2005. Version 2.0 will 
incorporate criminal history, arrest processing, and bail reports to 
court, and will replace the Agency's legacy ABA DABA (Automated Bail 
Agency Database) and DTMS (Drug Test Management System) information 
systems.
    In future versions, we hope to automate the release order process 
and create an electronic release order. The release order is the 
initial document that places a defendant under Pretrial Services 
supervision. Currently, the release order is a multi-part paper form, 
which is prepared manually by PSA and court staff in the courtroom and 
signed by the judge. PSA staff manually enters information on the 
release order into PSA's case management system.
    Over 30 courtrooms in D.C. Superior Court prepare and forward 
release orders to PSA throughout the week. Incomplete or illegible 
release orders or orders not received by PSA are common problems. 
Breakdowns in the manual process of transmitting release orders 
ultimately result in defendants not being supervised. Timeliness in 
posting new release conditions or any bond changes is paramount to 
effective supervision. Accuracy of on-the-record release conditions is 
also essential to ensuring the appropriate release conditions are 
imposed and supervised.
    Automation of this process would create an electronic release 
order, which could be generated in the courtroom, with printed copies 
available immediately for all relevant parties. Information could be 
posted real-time to both Pretrial Services' and D.C. Superior Court's 
information systems, assuring that both systems had reliable, timely, 
and accurate information.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
                      re-entry and sanction center
    Question. Please provide the schedule for renovation of Karrick 
Hall and how long the agency intends to remain in this facility, as 
part of the Reservation 13 master plan.
    Answer. In September 2002, CSOSA signed a 10-year lease with the 
District of Columbia for the use of Karrick Hall as CSOSA's Re-entry 
and Sanctions Center. From September 2002 to June 2003, CSOSA, the D.C. 
government, and several stakeholders worked to resolve planning issues, 
including the transfer of control of the land from the Federal 
Government to the DC government and the siting of the CSOSA facility 
within the framework of the Reservation 13 Master Plan. In June 2003, 
CSOSA reached agreement with the City to proceed with the renovation of 
Karrick Hall. A contract for Architectural and Engineering Design and 
Construction Management was signed in September 2003 and complete 
renovations are scheduled to be complete in Spring 2005. CSOSA plans to 
continue full operations at Karrick Hall at least throughout the term 
of the existing lease.
    Karrick Hall is a 60,000 square foot 8-story building constructed 
on the grounds of the D.C. General campus circa 1961. Since 1996, 
Karrick Hall has been the home of the Assessment and Orientation 
Center. The AOC program is a model program CSOSA now operates in 
partnership with the Washington Baltimore High Intensity Drug Task 
Force program, also known as HIDTA. When Karrick Hall is complete, the 
AOC will become CSOSA's Reentry and Sanctions program.
    On February 27, 2004, the AOC vacated Karrick Hall and moved into a 
temporary location at 1301 Clifton Street, NW. The AOC will be at 1301 
Clifton until the renovation is complete, in the spring of 2005.
    The renovations include:
  --Replacing the building's infrastructure (installing all new 
        plumbing, electrical, windows and exterior architectural 
        features as well as a new heating and air condition systems and 
        fire systems);
  --Installing two new elevators in place of the existing units;
  --Installing new restrooms and ensuring all new systems meet the 
        requirements of the Americans with Disabilities Act and other 
        handicap accessibility requirements.
    When renovations are completed in Spring 2005, the Reentry and 
Sanctions Center will expand to 108 beds, which will service 1,200 
offenders and defendants annually. The program will include four male 
units, one unit dedicated to females and one unit for the dually 
diagnosed. CSOSA's Fiscal Year 2005 Budget request contains funding for 
partial-year operations of all six units in fiscal year 2005.
    We are very excited about this initiative because the AOC program 
has a proven track record of success. A study conducted by the 
University of Maryland in May 2002 found there was a 74 percent 
reduction in re-arrests 1 year following completion of the AOC program. 
Expanding the capacity of this program has obvious positive impacts on 
public safety and quality of life.
                       supervision and treatment
    Question. What role does drug treatment play in reducing 
recidivism?
    Answer. Research supports the conclusion that effective drug 
treatment plays a significant role in reducing recidivism. Nationally, 
it is estimated that drug treatment results in a 45 percent reduction 
in criminal behavior in the 2 years following successful completion of 
treatment. A similar trend is seen in research conducted on 
participants of the Baltimore/Washington High Intensity Drug 
Trafficking Area (HIDTA) treatment continuum, the system on which 
CSOSA's substance abuse treatment continuum is based. The HIDTA 
program, which is grant-funded through the Office of National Drug 
Control Policy, targets geographic areas identified as having high 
concentrations of drug-related criminal activity, such as the 
Baltimore/Washington area. The evaluation of the Baltimore/Washington 
HIDTA treatment program was conducted by the University of Maryland and 
showed that the overall arrest rate for HIDTA treatment participants 
dropped 51 percent, and the arrest rate for participants of the HIDTA 
Assessment and Orientation Center, which is operated by CSOSA, dropped 
74 percent in the 12 months following successful completion of the 
program.
    Within CSOSA, we are currently developing a system to evaluate the 
impact of treatment on recidivism. The integration of an automated 
treatment tracking module with our SMART case management system during 
fiscal year 2003 allows us for the first time to analyze the impact of 
treatment on criminal behavior. During fiscal year 2003, drug related 
violations accounted for 58 percent of all technical violations 
reported for the year. We anticipate that our outcome analysis will 
mirror the findings of both the national and HIDTA outcome studies and 
will show a reduction in recidivism and technical violations amongst 
offenders who were referred to and successfully completed a continuum 
of treatment services during fiscal year 2003.
    Question. How many offenders and defendants are served by drug 
treatment, compared with the population identified as in need of 
treatment?
    Answer. CSOSA estimates that approximately 4,100 chronic substance-
abusing offenders required treatment interventions in fiscal year 2003, 
based on the number of offenders who tested positive for cocaine, 
heroin or PCP two or more times. It is important to note that CSOSA 
also supervises offenders who test positive fewer than two times that 
are also in need of treatment services. For purposes of this analysis 
4,100 offenders will be used as a low-end estimate.
    Each offender, on average, requires 3 placements to satisfy 
treatment-programming requirements. For example, offenders with chronic 
substance abuse histories are most often referred to detoxification 
followed by residential and outpatient services.
    Using the estimates described above, CSOSA requires the ability to 
make a minimum of 12,300 substance abuse placements per year (4,100 
offenders  3 treatment placements) to meet the population's need. The 
fiscal year 2003 appropriation enabled CSOSA to make 2,021 treatment 
placements, or just 16 percent of the total estimated need.
    Approximately 40 percent of offenders needing treatment are 
supervised at the Intensive or Maximum level, indicating a relatively 
high level of risk to public safety. CSOSA has focused treatment 
resources on this population to meet a higher percentage of need among 
the highest-risk offenders.
    Question. What kinds of programs are people placed in? Residential 
or out-patient? How do you determine which service providers offenders 
are referred to?
    Answer. CSOSA currently provides the following substance abuse 
services:
  --7-Day Medically Monitored Detoxification,
  --28-Day Intensive Residential Treatment,
  --120-Day Residential Treatment,
  --120-Day Residential Treatment and Transitional Housing for Women 
        with Children,
  --180-Day Residential Treatment for Dually-Diagnosed Substance 
        Abusers,
  --90-Day Supervised Transitional Housing,
  --Intensive Outpatient and Outpatient Treatment,
  --Traffic Alcohol Education Services.
    In addition to the services above, CSOSA also provides the 
following in-house interventions:
  --Substance Abuse Education Groups,
  --Assessment/Orientation Groups (Pre-treatment services),
  --Anger Management Groups,
  --Sanction Groups.
    The level of treatment recommended for each offender is determined 
by an evaluation conducted by CSOSA staff. The evaluation considers a 
variety of factors including pattern of drug use; amenability to 
treatment; prior treatment history; risk to public safety; and 
employment/living status.
    Question. How does CSOSA coordinate supervised release with drug 
treatment and counseling if those services are not provided at the 
halfway house?
    Answer. CSOSA does not provide treatment services to offenders 
residing in the halfway house on ``inmate'' status. For those 
individuals, the Bureau of Prisons provides contract treatment 
services. When the individual is released, the individual continues 
treatment under CSOSA's contract with the same vendor.
    CSOSA staff assess offenders who reside in the halfway house on 
``released'' status (parolee, supervised releasee or probationer under 
a Public Law placement) to identify their specific treatment needs. The 
offenders are permitted to leave the halfway house to attend substance 
abuse treatment sessions at the identified treatment program. Upon 
leaving the halfway house, the offender's treatment continues and, if 
needed, the offender is referred to the next level of care.
    Offenders who enter supervision with no prior halfway house stay 
are assessed for treatment needs as part of CSOSA's intake and case 
planning process. If the offender has a release condition requiring 
treatment, placement is initiated at that time.
    Once the individual is under CSOSA supervision, the Community 
Supervision Officer (CSO) is responsible for ensuring that the offender 
is in full compliance with the treatment plan, sanctioning the offender 
for any behavioral non-compliant acts, meeting with the treatment 
professional to facilitate offender compliance, monitoring the offender 
until successful completion of treatment, or referring the offender 
back to the releasing authority if continued non-compliance with 
treatment results in removal from treatment or unsatisfactory 
compliance.
       success rate of women offenders re-entering the community
    Question. What specific steps or initiatives are underway to enable 
successful re-entry of women?
    Answer. Currently, CSOSA's Community Supervision Program (CSP) has 
several gender-specific programs to address the needs of female 
offenders. CSP contracts for residential placements in gender-specific 
residential programs, such as Demeter House, which treats chemically-
addicted mothers, who may be accompanied by their children while in the 
program. The Substance Abuse and Treatment Branch also provides weekly 
in-house group sessions for women. In addition, the Transitional 
Intervention for Parole Supervision (TIPS) program has a community 
supervision officer on-site at the Fairview Community Corrections 
Center to assist women with reentry issues. The Fairview CCC also may 
be used for public law placements and as an intermediate sanction for 
high risk/needs women offenders.
    CSP is working to expand gender-specific programs. The expanded 
Reentry and Sanctions Center will contain a unit for female offenders. 
Additionally, a team of managers received training at the National 
Institute of Corrections Academy last year on implementing effective 
agency-wide programs for female offenders. The members of this team now 
are leading a work group to implement these strategies around such 
issues as victimization and trauma, mental health and medical problems, 
family and child rearing, and economic self-sufficiency. The Agency is 
working to:
  --Implement additional, in-house gender-specific group counseling 
        programs and training group facilitators;
  --Develop a comprehensive training curriculum that provides 
        information/tools for line staff and administrators to 
        effectively manage female offenders;
  --Compile a resource guide to ensure that Community Supervision 
        Officers are aware of, and have access to, available in-house, 
        community and government programs;
  --Work with our faith-based partners to female women offenders are 
        linked to mentors;
  --Strengthen partnerships with the many community organizations and 
        government agencies that provide services to this population; 
        and
  --Arrange child-care opportunities with our community partners to 
        allow female offenders to engage in programming and supervision 
        activities.
    Question. Does CSOSA coordinate with the Child and Family Services 
Agency (CFSA) or D.C. Public Schools to follow-up on women re-entering 
family life?
    Answer. CSOSA makes every effort to connect returning offenders 
with programs and services that can help them achieve successful 
reintegration in the community. While there is no agency policy 
requiring coordination, Community Supervision Officers (CSO's) 
informally confer and collaborate with the city's social services 
agencies on cases in which there is a common interest. The CSO may need 
to be aware of services the offender or her children receive from CFSA, 
or the CSO may initiate referral for such services. Typically, if the 
offender needs educational programming, s/he will be referred to a 
Learning Lab for assessment. The Learning Lab may refer the offender to 
D.C. Public Schools evening programs if appropriate.
                 criminal justice coordinating council
    Question. Is the CJCC well-equipped in its current status to 
continue to aide in the creation of seamless criminal justice services 
that enhance public safety and maximize resources?
    Answer. Over the course of 2003-2004, the CJCC has been able to 
strengthen its position within the criminal justice community as a 
resource tool and a catalyst for system reform, institutional 
modification and program analysis. In January of 2003, the member 
agencies of the CJCC made a commitment to address a variety of issues 
by completing a multi-year strategic plan. These issues are being 
addressed through committees and workgroups using a process of careful 
investigation and recommendations. CJCC provides support to these 
workgroups through research, data collection and tracking. The CJCC is 
now in the process of completing its second, annual report for fiscal 
year 2003.
    There is a general improvement in the trust and solicitation of 
multiagency approaches to problem solving which can only make the city 
services stronger and more efficient. Through the CJCC there has been 
the successful establishment of an infrastructure to support these 
multiagency efforts, report on progress and measure success. The 
support of the Mayor, D.C. Council, OMB and Congress has provided a 
strong foundation for the development of the CJCC.
                  re-arrest rate and parole revocation
    Question. Would you please submit to the committee a comparison of 
the re-arrest rates and parole revocation hearings in the District to 
other jurisdictions of similar size? (Please coordinate response with 
PDS).
    Answer. The percentage of offenders arrested while under CSOSA 
supervision was 18 percent in fiscal year 2002 and 15 percent in fiscal 
year 2003. Although comparable neighboring jurisdictions (i.e., 
Baltimore and Richmond) do not report their rearrest data in a similar 
fashion, we will soon move to a more comparable reporting format--
recidivism rates measured over a 24- to 36-month period for entry and 
exit cohort offender populations.\1\
---------------------------------------------------------------------------
    \1\ In January 2003, the Virginia Department of Corrections 
released a 3-year recidivism study indicating that nearly 30 percent of 
roughly 9,000 offenders returned to incarceration. Of those who 
returned, the greatest share returned within the first year.
---------------------------------------------------------------------------
    To accomplish the above reporting objective, CSOSA is exploring a 
data sharing agreement with the Federal Bureau of Investigations. This 
particular agreement will enable the agency to implement its recidivism 
studies by verifying and tracking all known and reported rearrests 
contained in the FBI's National Crime Information Center (NCIC). Once 
in place, ORE will collect and verify all known arrests for stratified 
random samples of entry and exit cohorts. We hope to begin reporting 
our 24- and 36-month rearrest rates beginning in the summer of 2005 and 
on a regular basis thereafter.
    Between fiscal year 2001 and fiscal year 2003, the United States 
Parole Commission reported 768, 1,072, and 1,240 revocation hearings 
for D.C. offenders respectively. These hearings fall into three 
categories--institutional, expedited, and local. Only local revocation 
hearings require the presence of CSOSA's CSO's for introduction of 
facts.\2\ A large share of these revocations resulted from hearings 
that were requested following an offender's persistent drug use and/or 
technical violations regardless of rearrest or prosecutorial decision 
to present charges to the judiciary.\3\
---------------------------------------------------------------------------
    \2\ USPC [actual] local revocation hearings were 481 in fiscal year 
2001, 660 in fiscal year 2002, and 562 in fiscal year 2003.
    \3\ The Virginia study also indicated that nearly of third of 
recidivists were revoked to incarceration following technical violation 
and the remaining following arrests for a new charge.
                        Public Defender Service

STATEMENT OF RONALD S. SULLIVAN, JR., DIRECTOR
    Senator DeWine. Let me invite our second panel up, which is 
one witness. Mr. Ronald Sullivan, Jr. is Director of the Public 
Defender Service in the District of Columbia. He was appointed 
Director in June 2002. Mr. Sullivan was in private practice 
here in the District and was a visiting attorney for the Law 
Society of Kenya. He sat on the committee charged with drafting 
a new constitution of that country.
    Mr. Sullivan is leaving the Public Defender Service this 
summer to take a professorship at Yale. We welcome him.
    Mr. Sullivan, thank you for being here today.
    Mr. Sullivan. Thank you very much.
    Senator DeWine. Would you like to make a statement? And 
then we will have some questions.
    Mr. Sullivan. Indeed, I would.
    Good morning, Mr. Chairman, Senator Landrieu.

                              INTRODUCTION

    I come before you today in support of the fiscal year 2005 
budget request on behalf of the Public Defender Service for the 
District of Columbia, or PDS as we are commonly known as in the 
criminal justice system.
    Throughout its history, PDS has maintained its reputation 
as the best public defender service in the country, local or 
Federal. PDS is a legal services provider that this Congress, 
this subcommittee, and this City can be proud of.
    Our track record, both historically and recently, speaks 
for itself. Indeed, just this past summer the United States 
Supreme Court appointed one of our attorneys to a case of 
national importance. The case regarded the construction and 
application of 42 U.S.C. Section 1983, which forbids State 
officials from depriving individuals of their Constitutional 
rights under color of State law.
    The exquisitely graceful brief produced by our attorney on 
behalf of a prison inmate proved convincing. Last Thursday, the 
Supreme Court ruled in a 9-0 opinion, adopting PDS's position. 
I ask you, when was the last time you recall this Supreme Court 
agreeing 9-0 on anything?

                 PDS'S FISCAL YEAR 2005 BUDGET REQUEST

    With this backdrop, I move to PDS's fiscal year 2005 
request. PDS requests $29.8 million and 227.5 FTE in direct 
budget authority. This request includes $2.3 million as our 
first ever capital investment in information technology.
    The investment will provide for development of our case 
data management systems. It will enhance our security over 
privileged attorney/client information, and it will reduce our 
risk of losing client information in the event of a local 
disaster.
    Indeed, recently, the Cook County defender office in 
Chicago was virtually destroyed by fire. This sort of disaster 
can occur, and if the institutional defender service is not 
prepared, we risk grinding the criminal justice system to a 
halt.
    Coupled with this technology investment, we are targeting 
to improve PDS's operational efficiencies in the areas of 
program planning and development, administration, human 
resources, and financial management. There is far more detail 
in my written submission, but suffice it to say PDS's skeletal 
professional support staff is woefully inadequate to support an 
agency of this size and scope.

                 PDS'S FISCAL YEAR 2004 ACCOMPLISHMENTS

    Now, briefly to fiscal year 2004 accomplishments: As this 
subcommittee knows from recent press accounts, PDS, in its 
class action litigation against the District, recently filed a 
motion to place the D.C. Youth Services Administration in 
receivership as a consequence of its nearly two-decade long 
neglect of the District's most needy children. The District's 
lack of compliance with dozens of court orders to date is not 
acceptable.
    In addition to its class action litigation, PDS represents 
individual citizens one at a time when they are faced with 
criminal charges.
    One example illustrates how PDS affects the lives of D.C. 
citizens. Recently we represented a 70-year-old man. Let me 
call him John, so as not to further the injustice brought upon 
him. John was charged with felony gun possession. He had never 
been in trouble before. He worked part-time as a special police 
officer and was licensed to carry a handgun while on duty and 
to and from his home to work.
    One day after work, he stopped at the headquarters--the 
headquarters of the special police officer's department--to 
pick up some work related paperwork. He forgot to remove his 
handgun before walking into the building, since, technically 
speaking, he did not work at the headquarters.
    As a result of this mistake, John was arrested and faced 
the possibility of a felony conviction with a 5-year prison 
sentence. The conviction would have cost him his job, his means 
to supplement his retirement, and his spotless reputation, 
which he had built over 70 years.
    Fortunately, John was represented by a well-trained public 
defender. The result--it took John's jury 10 minutes to elect a 
foreperson and render a verdict of not guilty.
    PDS seeks fairness in every case it handles, and this is 
but one example of how PDS affects the lives of concrete people 
and the administration of justice in our Nation's capital. 
PDS's mission to represent indigent citizens in the District 
with diligence and zeal is clear and well defined. We do it 
responsibly. We do it efficiently. We do it cost effectively, 
but most importantly we do it well.
    The Public Defender Service for the District of Columbia 
has been and continues to be this country's model defender 
agency. With your support, we will continue in this proud 
tradition.

                           PREPARED STATEMENT

    I see the yellow light is on, which indicates that my time 
is nearly expired. I thank you for your time and attention. I 
would be happy to answer any questions that this subcommittee 
may have.
    Senator DeWine. Thank you very much.
    [The statement follows:]
             Prepared Statement of Ronald S. Sullivan, Jr.
    Good afternoon, Mister Chairman and members of the subcommittee. My 
name is Ronald S. Sullivan, Jr., and I am the Director of the Public 
Defender Service for the District of Columbia (PDS). I come before you 
today to provide testimony in support of PDS's fiscal year 2005 budget 
request. We thank you for your support of our programs in previous 
years.
    The Public Defender Service, unique among local public defender 
offices in that it is federally funded,\1\ has continued to maintain 
its strong reputation in the area of providing quality criminal defense 
representation in the District of Columbia. Just last week, the United 
States Supreme Court, in a 9-0 opinion, ruled for a PDS client in a 
case briefed and argued by a PDS attorney at the request of the Court.
---------------------------------------------------------------------------
    \1\ As a result of the National Capital Revitalization and Self-
Government Improvement Act of 1997 (the ``Revitalization Act''), PDS 
was established as a federally funded, independent District of Columbia 
organization. In accordance with the Revitalization Act, PDS transmits 
its budget and receives its appropriation as a transfer through the 
Court Services and Offender Supervision Agency (CSOSA) appropriation.
---------------------------------------------------------------------------
    This case is just the latest successful example of PDS's long 
history of providing quality defense representation. PDS has always 
been committed to its mission of providing and promoting 
constitutionally mandated legal representation to adults and children 
facing a loss of liberty in the District of Columbia who cannot afford 
a lawyer, and we have had numerous significant accomplishments in 
pursuit of that mission. However, before PDS became a federally funded 
entity, we did not always have sufficient funding to allow us to 
achieve as high a level of proficiency in our administrative 
functioning as we are known for in our legal representation. PDS's 
relatively new status as a federally funded entity \2\ has created the 
opportunity for us to focus more on enhancing our administrative 
functions: in the past 7 years, PDS has established a human resources 
office, an information technology office, and a budget and finance 
office where none previously existed. To continue this ``administrative 
maturation,'' PDS has a need for a more sophisticated structure that 
will permit not only the integration of these functions with each other 
and with PDS's program functions, but will permit the organization to 
better monitor performance and to achieve even greater results. In 
furtherance of these goals, PDS has already adopted Federal best 
practices in a number of support areas, and we are preparing to adopt 
additional Federal best practices in even more areas.
---------------------------------------------------------------------------
    \2\ See n. 1.
---------------------------------------------------------------------------
    It is for these reasons that PDS seeks funding for our sole fiscal 
year 2005 requested initiative, the Program Management and Performance 
Integration Initiative. For fiscal year 2005, PDS requests $29,833,000 
and 227.5 FTE in direct budget authority, which includes a request for 
8.5 new FTE and $3,714,000 to support this new initiative. This 
proposed increase in personnel resources and funding--PDS's first ever 
Federal capital funding request--is consistent with the President's 
emphasis on achieving measurable results and improving operational 
efficiency.
                               background
    Since undertaking in 1970 its intended role as a model public 
defender, PDS has developed and maintained a reputation as the best 
public defender office in the country--local or Federal. It has become 
the national standard bearer and the benchmark by which other public 
defense organizations often measure themselves. In a first ever 
employee survey conducted just 6 weeks ago, 99 percent of responding 
staff reported being proud of working at PDS. The independent firm that 
conducted the survey informed us that PDS received one of the highest 
overall scores the firm had ever observed in assessing staff commitment 
to an organization's mission. Congress and the District of Columbia can 
also be proud of this local defender office for our Nation's capital.
    In the District of Columbia, PDS and the District of Columbia 
Courts share the responsibility for providing constitutionally mandated 
legal representation to people who cannot pay for their own attorney. 
Under the District of Columbia's Criminal Justice Act (CJA), the 
District of Columbia Courts appoint PDS generally to the more serious, 
more complex, resource-intensive, and time-consuming criminal cases. 
The Courts assign the remaining, less serious cases and the majority of 
the misdemeanor and traffic cases to a panel of approximately 350 pre-
selected private attorneys (``CJA attorneys''). Approximately 100 
lawyers on staff at PDS are appointed to represent:
  --a significant percentage of people facing the most serious felony 
        charges;
  --a substantial percentage of individuals litigating criminal 
        appeals;
  --the majority of the juveniles facing serious delinquency charges;
  --nearly 100 percent of all people facing parole revocation; and
  --the majority of people in the mental health system who are facing 
        involuntary civil commitment.
    While much of our work is devoted to ensuring that no innocent 
person is ever wrongfully convicted of a crime, we also provide legal 
representation to children in the delinquency system who have learning 
disabilities and require special educational accommodations under the 
Individuals with Disabilities in Education Act,\3\ people with mental 
illness who are facing involuntary civil commitment, and recovering 
substance abusers participating in the highly successful Drug Court 
treatment program.
---------------------------------------------------------------------------
    \3\ 20 U.S.C.  1400, et seq.
---------------------------------------------------------------------------
    PDS has also provided training for other District of Columbia 
defense attorneys and investigators who represent those who cannot 
afford an attorney, and provided support to the District of Columbia 
Courts. In addition, PDS has developed innovative approaches to 
representation, from instituting measures to address the problems of 
clients returning to the community who have been incarcerated to 
creating a one-of-a-kind electronic case tracking system. Other public 
defender offices across the country have sought counsel from PDS as 
they have used our work as a pattern for theirs. As Federal best 
practices continue to spread to the State and local level, PDS is 
ideally situated to become a model for how a public defender office can 
be operated most effectively in the 21st century.
                        fiscal year 2005 request
Program Management and Performance Integration Initiative
    For fiscal year 2005, PDS requests $29.8 million and 227.5 FTE in 
total direct budget authority. This request includes $2.3 million as 
our first capital investment in information technology. The investment 
will allow us to expand our case and data management systems to provide 
more efficient attorney services. Software development and deployment, 
and associated hardware and licensing will enhance security of 
privileged attorney-client information and reduce our risk of loss of 
client information in the event of a local disaster.
    Recent experience in Chicago drives home the importance to the 
smooth operation of the criminal justice system of ensuring that the 
defender organization can continue to operate even if its offices are 
damaged or its computer systems are destroyed. Last fall, the building 
housing the Cook County defender's main offices was virtually destroyed 
in a fire. Had the Cook County defender lacked the capacity to retrieve 
data from backup sources and create sufficient off site work terminals, 
the criminal justice system would have stalled, and representation 
would have been rendered ineffective.
    PDS is also working to improve its operational efficiencies. PDS 
seeks $1.4 million as the resources needed to reach a level of 
sophistication in program planning and evaluation, administration, 
human resources, and financial management that corresponds to PDS's 
reputation for quality defense representation. As explained in detail 
in our fiscal year 2005 Congressional Budget Justification, the $1.4 
million in requested support would be used for:
  --program data collection and analysis;
  --data system integration;
  --performance planning;
  --performance measurement;
  --compliance with Federal standards for systems, accounting, and 
        reporting; and
  --coordination of electronic financial, personnel, and performance 
        records.
    Historically, PDS has maintained skeletal support in these critical 
administrative areas; however, increased performance assessment and 
accountability demands require that we improve our capacity in those 
areas. This need was also reflected in the results of the PDS employee 
survey; our scores were slightly lower on questions related to the 
quality of our administrative operations. Additional support for PDS 
programs and PDS attorneys will increase the potential for greater 
efficiency and effectiveness in carrying out PDS's mission. One of 
PDS's goals is to maximize the time that attorneys, investigators, and 
social workers spend doing that for which they are best suited--
developing creative and effective ways to pursue justice in the 
District of Columbia.
                    fiscal year 2004 accomplishments
    During fiscal year 2004, in addition to handling a variety of 
criminal, juvenile, parole, mental health, and other legal matters, PDS 
has been very successful in instituting changes to improve the overall 
quality of the District of Columbia justice system.
Fiscal Year 2004 Initiative: Appellate Response Initiative
    In fiscal year 2004, Congress and the President provided a program 
increase for PDS totaling .5 FTE, and $100,000 in support of one new 
initiative--PDS's Appellate Response Initiative. PDS used the funding 
to hire a new attorney in the Appellate Division, where the workload 
has increased by approximately 50 percent since the passage of the 1997 
Revitalization Act without any corresponding increase in staff levels. 
The newest Appellate Division attorney began working just over 2 weeks 
ago; her work will contribute toward reducing the backlog of unfiled 
appellate briefs. This backlog is due to the staffing shortage and to 
the substantially shorter briefing schedules now being imposed 
generally in appellate cases by the District of Columbia Court of 
Appeals.
    This additional resource will enhance the ability of attorneys in 
the Appellate Division to meet their obligations, which include 
providing constitutionally mandated appellate legal representation to 
individuals who cannot afford an attorney, responding to requests from 
the District of Columbia Court of Appeals and the Superior Court for 
amicus curiae (``friend of the court'') briefs on complex or unusual 
issues in criminal cases, and devoting a significant amount of time to 
training both PDS and non-PDS lawyers.
                    general program accomplishments
Criminal Justice System Reforms
    PDS has remained vigilant in protecting the rights of the indigent 
in the District of Columbia criminal justice system in old cases and in 
new ones.
            Well-being of Children
    Throughout fiscal year 2003 and continuing in fiscal year 2004, PDS 
has drawn renewed attention to the conditions under which children live 
who have been committed to the care of the District of Columbia through 
the juvenile justice system. All experts agree that proper intervention 
in the lives of these children at this juncture is key to breaking the 
cycle of involvement in the system. Current conditions for committed 
children not only fail to advance the cause of reducing recidivism; 
current conditions actually promote recidivism among these children.
    As a result of PDS's tireless 18-year effort in a case known as 
Jerry M., the plight of committed children has been the object of 
intense examination in the media, in the political arena, and just last 
week in hearings before Superior Court Judge Dixon. In these hearings, 
PDS and co-counsel are seeking to have the District's Youth Services 
Administration put into receivership to finally produce the concrete 
changes necessary to save these children and protect the community. 
Whatever the outcome of this litigation, the plight of these most 
vulnerable children will improve because this case has put YSA on 
notice that the city and the public are watching. Through this lawsuit, 
juvenile justice experts have had an opportunity to examine the 
children's living conditions and recommend concrete actions that YSA or 
a receiver will be able to take to immediately improve the well being 
of committed children.
    PDS has carried out this litigation while simultaneously providing 
services that address every aspect of a child's involvement with the 
court system in innumerable individual cases and in innumerable ways. 
Among the most important have been: (1) developing qualified attorneys 
to represent children by generating hours of training for court-
appointed counsel who practice in the new Family Court; (2) increasing 
the services to children with educational disabilities through 
litigation handled by PDS lawyers with expertise in special education 
advocacy; and (3) working collaboratively with a wide variety of 
organizations to help children transition back to the community. This 
last effort is a direct result of a fiscal year 2002 initiative 
establishing our Community Re-entry Project, which carries on to this 
day.
    In fiscal years 2003 and 2004, PDS approached Catholic University 
about providing services to girls committed to the care of the District 
of Columbia. With PDS's experience and expertise, a proposal has been 
developed for creating a group home for girls on the university's 
campus, serviced by the university's graduate programs. The proposal 
includes long-term involvement by the university in the lives of these 
girls, or what experts refer to as ``after-care.'' The proposal calls 
for providing school services, health care, mental health services, 
family services, and mentorship not only while the girls reside on 
campus but also after the girls leave the group home and transition 
back into our community. Such a wrap-around approach to caring for 
committed children could be developed at every university in this city. 
The potential of such programs for saving the lives of District of 
Columbia is enormous.
    PDS is committed to staying on the forefront of looking for ways to 
improve the treatment of children involved in our court system.
Fairness in the Criminal Justice System
    A logical outcome of PDS's vigorous pursuit of its mission is the 
attention PDS devotes to identifying and addressing questions related 
to fairness in the criminal justice system. PDS champions this cause in 
every single case it handles. Because these are too numerous to 
describe, we focus on three cases and one project that are 
illustrative.
    Special police officer.--Recently in the Superior Court for the 
District of Columbia, our client, a 70-year-old former sergeant in the 
Marine Corps, was charged with felony gun possession. Our client had 
never been in trouble before. He operated his own security business and 
worked as a part time special police officer. He was licensed to carry 
a handgun while on duty and while traveling between his home and his 
work. One day on his way to work, he stopped at a District government 
office to drop off a form to renew his business license, forgetting 
that he was wearing his gun in its holster. As a result of this 
innocent mistake, he was arrested and charged. He faced the possibility 
of a felony conviction and 5-year prison sentence. The conviction would 
have cost him his business--his means to supplement his retirement 
income. Fortunately, he was represented by a well-trained and dedicated 
public defender. The result--it only took his jury 10 minutes to elect 
a foreperson and render a verdict--not guilty.
    Detention order reversed.--Another example involved appellate and 
trial representation. Recently, PDS represented a young man charged 
with murder in an appeal from the trial court's decision to hold him in 
jail until his trial. The Court of Appeals upheld the trial judge's 
ruling that there was sufficient reliable evidence to justify holding 
our client in jail until his trial. What the trial court, the Court of 
Appeals, and PDS did not know at the time this appeal was argued was 
that the prosecutor had failed to reveal all the relevant facts during 
the hearing before the trial judge. Through tenacious litigation and a 
persistent search for the truth, PDS uncovered evidence making it clear 
that the government's eyewitness was very suspect: the government's 
eyewitness was not simply a bystander as the trial court had been led 
to believe, but, rather, the witness had participated in shooting the 
victim and had only implicated PDS's client as part of an effort to 
secure a deal with the government. Once PDS uncovered the truth, PDS 
undertook consultations at the highest levels with the United States 
Attorney's Office, resulting in a very unusual joint motion to vacate 
the Court of Appeals opinion, an opinion that was rendered on a 
compromised set of facts. The result--the opinion was vacated, the 
integrity of the court was preserved, and truth--and thus justice--
prevailed. Later, the United States Attorney's Office, after weighing 
the merits of the murder case itself, dismissed the charges against the 
PDS client altogether.
    Erroneous eyewitness identification.--Finally, PDS has been 
advancing the position for several years that eyewitness 
identifications can be inaccurate. Recent studies of cases where DNA 
has exonerated individuals have demonstrated that in the vast majority, 
eyewitnesses were mistaken in their identifications. Indeed, we know 
that defendants in the District of Columbia have been wrongfully 
convicted as the result of erroneous eyewitness identifications: more 
than a decade ago, a Superior Court jury convicted a former PDS client 
of multiple felonies in large part because of mistaken eyewitness 
testimony. After spending a year in prison, our client was exonerated 
by DNA evidence. Cases like these undermine public confidence in our 
criminal justice system. And yet, every single day, District of 
Columbia courts are allowing juries to evaluate eyewitness testimony 
without accurate information about its limitations.
    Over the past 30 years, social scientists have identified many of 
the specific reasons that eyewitnesses make mistakes. For example, 
studies have shown that a witness's subjective confidence in the 
strength of her identification has virtually no correlation with the 
accuracy of the identification. Unfortunately, the lay public, 
uninformed that social science and empirical evidence undermine 
reliance on such evidence, routinely misjudges what weight to give 
eyewitness testimony. Introduction of accurate social science evidence 
into the courtroom, and the use of jury instructions that accurately 
reflect this science, would go a long way toward preventing these kinds 
of errors.
    PDS has already begun to lay the groundwork to update this sort of 
ungrounded legal thinking so that criminal cases will be decided on the 
basis of reliable science. PDS has developed model instructions, 
identified experts, and most recently conducted a jury survey to 
demonstrate conclusively to jurists in the District of Columbia that 
the average juror is not familiar with current scientific research 
regarding eyewitness identification and that jurors can benefit from 
the testimony of experts when evaluating eyewitness evidence. Bringing 
the law in the District of Columbia in line with more than 16 States, 
including Alabama, Arizona, California, New Jersey, Oklahoma, Texas; 
multiple Federal circuits; and the United States Army Court of Criminal 
Appeals is yet another example of PDS's ongoing efforts to provide 
quality representation.
    These are but a small sample of how PDS positively affects people's 
lives and the administration of justice here in the Nation's capital.
                     other program accomplishments
    PDS engaged in a number of activities during fiscal year 2004 that 
improved the overall administration of justice or that had significant 
implications for individual clients.
Appellate Division
    The Appellate Division's appellate litigation has impact throughout 
the District's criminal justice system as decisions in their cases 
often establish or clarify the standards trial court judges and 
litigants must follow in criminal and juvenile cases. The complex and 
novel legal issues the Division is called upon to address therefore are 
best handled by experienced and talented attorneys--which the Division 
has no lack of. As previously noted, in fiscal year 2003, even the 
highest court in the land looked to the Appellate Division for 
assistance.
    Supreme Court litigation.--The Supreme Court of the United States 
appointed an attorney from the Division to represent an incarcerated 
man where the Federal courts of appeals had issued conflicting opinions 
on the applicability of a rule to lawsuits challenging the conditions 
of confinement, but not implicating the fact or duration of 
confinement, i.e., matters lying at the core of habeas corpus 
jurisprudence. The Supreme Court recently ruled unanimously in favor of 
the arguments advanced by the PDS attorney.
    Failure to disclose bias.--In a case in which for 10 years the 
Appellate Division challenged the United States Attorney's Office's 
refusal to comply with its obligation to provide exculpatory 
information, the trial court issued an order granting a new trial for a 
client whose trial on a murder charge was marred by secret payments 
from the government to the sole eyewitness and by a prosecutor who 
incorrectly argued to the jury that the government had done nothing to 
benefit the witness. The Appellate Division obtained two reversals of 
trial court post-conviction rulings before the trial court ultimately 
decided that PDS's post-conviction pleadings warranted a new trial.
    Prosecutorial misconduct.--In another lengthy case involving 
exculpatory evidence, the Appellate Division advanced First Amendment 
claims to convince the United States District Court for the District of 
Columbia to unseal the post-conviction proceedings in a Federal court 
conspiracy case. The court documents in that case included, among other 
things, a Department of Justice Office of Professional Responsibility 
report concluding that a prosecutor had committed misconduct by 
misusing government funds to pay government witnesses and their 
families and friends. The District Court ultimately ruled in PDS's 
favor in November, after Appellate Division lawyers had been litigating 
for almost 2 years to allow the light of public scrutiny to shine on 
court proceedings.
    The Appellate Division has been seeking a new trial on behalf of 
that same client as a result of gross misconduct by the same former 
Assistant United States Attorney whose malfeasance is detailed in the 
now-unsealed OPR report. Among other claims, our motion shows that the 
prosecutor misused a fund for the payment of court witnesses to provide 
secret payments to witnesses at the trial of our client. This 
misconduct parallels some of the misconduct that the Justice 
Department's own internal investigation uncovered in the Federal court 
case.
    Government admissions.--In still another case involving the 
government's duty of fairness, the District of Columbia Court of 
Appeals ruled that certain statements in a search warrant affidavit 
endorsed by an Assistant United States Attorney constituted government 
admissions and could be introduced by a PDS client at his trial. This 
ruling is important because it meant that the government would pay an 
evidentiary price for taking opposite positions on critical factual 
questions in two different proceedings. The case is also important 
because it is one of the most developed decisions on the question of 
when government submissions in court constitute admissions.
    Attorney-client privilege.--In In re PDS, the Court of Appeals 
wrote an opinion that may be one of the most extensive discussions of 
an issue of national importance--namely the scope of the crime fraud 
exception to the attorney-client privilege. In this case, a trial judge 
had held PDS in civil contempt (but stayed execution of any penalty 
upon PDS's representation that it would comply with the court ruling if 
affirmed on appeal) for refusing to disclose information it believed to 
be protected by the attorney-client privilege. The Court of Appeals 
concluded that PDS was acting within the highest standards of the bar 
in investigating the case as it had, and that the information held by 
the PDS lawyer was protected by the attorney-client privilege because 
the elements of the crime fraud exception had not been shown.
    Habeas corpus litigation.--In a series of cases involving Appellate 
and Special Litigation Division attorneys, we have been litigating the 
question of whether District of Columbia judges have habeas corpus 
jurisdiction over cases involving clients with District of Columbia law 
issues, but who are incarcerated outside the District. We have 
litigated this question in both the District of Columbia Court of 
Appeals and in the United States Court of Appeals for the District of 
Columbia Circuit. The question is now pending before the United States 
Supreme Court in a separate case. The question is immensely important 
to our clients and to District of Columbia citizens, because in the 
wake of the Revitalization Act, District of Columbia prisoners were 
moved from the now closed Lorton facility to non-District facilities. 
Because these prisoners were sentenced in the District's courts for 
violations of local District of Columbia laws, and because their parole 
is governed by laws unique to the District of Columbia and generally 
involves facts that occurred in the District of Columbia, the most 
logical forum for hearing District prisoner claims is the District of 
Columbia courts where the bench and bar have substantial expertise in 
addressing District law questions. In fact, the District of Columbia 
government has supported PDS's position--not the Federal Government's--
in this litigation.
Special Litigation Division
    The Special Litigation Division's focus on systemic issues in the 
District of Columbia justice system leads it to litigate those issues 
before every court in the District of Columbia--the Superior Court and 
Court of Appeals in the local system, and the District Court, the Court 
of Appeals, and the Supreme Court in the Federal system. These are some 
of the highlights of our litigation:
    Conviction of the innocent.--With the advent of DNA testing, we now 
have evidence that the American criminal justice system sometimes 
produces demonstrably wrong results--innocent people are convicted, and 
the real culprit goes free. DNA testing is a powerful tool for catching 
these mistakes, but its scope is limited to the few cases in which 
biological evidence is available, can be tested, and is connected to 
the crime. For every DNA exoneration, there are countless cases where 
testing cannot help because no DNA was left at the scene, the 
biological evidence was too degraded to obtain a conclusive result, or 
the evidence that was once there has been lost or destroyed.
    In order to effectively address the recurring, institutional 
problems that contribute to the conviction of the innocent, PDS's 
Special Litigation Division has focused on two major problems revealed 
by the DNA exonerations: common misperceptions about the reliability of 
eyewitness identification evidence, as described above, and juror 
misunderstanding of the demonstrated phenomenon of ``false 
confessions''--situations in which someone who did not commit the crime 
admits to it anyway. PDS's Special Litigation Division has marshaled a 
variety of resources on these subjects, including social science 
research, testifying experts, surveys of potential jurors to determine 
the reason for their failures to properly understand these subjects, 
and information about the causes of wrongful convictions around the 
country, in order to help the courts begin to address these problems 
systematically. The focus of these projects is to allow the defense to 
point out potential flaws in the reliability of seemingly solid 
evidence, so that the adversarial system will work more efficiently and 
not continue to produce wrongful convictions at such an alarming rate.
    Unfair delay in release from jail.--Another recurring problem in 
the District of Columbia's criminal justice system is its failure to 
release people who have been found not guilty after trial or whose 
charges have been dismissed. While local corrections officials have 
asserted some need to ``check''--often for several days--to ensure that 
the right person is being released and that the case really was 
dismissed, other systems around the country have managed to do this 
before the charges are dismissed so that people can be released 
directly from the courtroom. Los Angeles, for example, has developed a 
model procedure that ensures that people with no pending charges are 
not held in jail unnecessarily.
    The Special Litigation Division has contacted local corrections 
officials and attempted to educate them on the extreme unfairness and 
likely illegality of the current system, and has prepared model 
pleadings for lawyers at PDS to use to attempt to secure speedy release 
for clients who are no longer facing criminal charges. Because local 
officials have proven unreceptive, however, PDS also has been 
cooperating with the lawyers litigating a class action lawsuit against 
the District to address this issue.
    Special education services for youth at the D.C. Jail.--The Federal 
Individuals with Disabilities Education Act \4\ was enacted to ensure 
``that all children with disabilities have available a free appropriate 
public education that emphasizes special and related services designed 
to meet their unique needs.'' The youth housed at the District's jail 
are clearly entitled to these services--and need them most 
desperately--but are not receiving anything close to what the law 
requires because the District's public school system and the D.C. 
Department of Corrections do not have any comprehensive system in place 
for identifying those youth who are entitled to special education 
services at the jail, and for providing those services to them. PDS's 
Special Litigation Division is currently seeking to compel the 
District's school system and Department of Corrections to provide these 
important services.
---------------------------------------------------------------------------
    \4\ 20 U.S.C.  1400, et seq.
---------------------------------------------------------------------------
Civil Legal Services Unit
    Special education services for children in delinquency cases.--PDS 
continues to meet the need of children in the delinquency system for 
special education advocacy. The Unit's attorneys specialize in advocacy 
under the Individuals with Disabilities in Education Act, which 
mandates special accommodations in public schools for children who 
cannot be adequately educated in a traditional classroom setting due to 
a learning disability or other challenge. The Unit's attorneys ensure 
that children receive an appropriate diagnostic assessment and work 
with the school system to secure alternative educational programs. This 
past year, the Unit doubled the number of PDS juvenile clients who are 
receiving appropriate special education services and treatment in 
community schools and non-correctional facilities as an alternative to 
detention and commitment.
Offender Rehabilitation Division
    Our Offender Rehabilitation Division offers clients access to 
resources they often could not find on their own. The benefits to the 
clients come in many areas, including employment, education, and 
housing.
    Employment.--Over many years, a former star athlete on a 
professional team lost everything--his job, his family, his home, his 
friends, and his pride--to cocaine. He began selling drugs, he was 
arrested, and he wouldn't accept anyone's help before he was referred 
to ORD. At the time our staff became involved, he didn't even have 
enough money for a $10 ID card. Through ORD's intervention, he gained 
the courage to interview for a job at a local trade association where 
he began an intensive job training and parenthood program. The result--
he graduated from the program and has gone on to be a successful 
fundraiser for the association. He has not only gone from being 
involved in the criminal justice system to being a productive member of 
our community--he has gone even further and is giving back.
    Education.--A young woman who had been in the neglect system 
virtually all of her life later was charged with a juvenile offense and 
sent to the District's juvenile detention facility in Laurel. The 
Division assisted her in moving into a therapeutic group home, and now 
she is enrolled as a freshman at a local university where scholarship 
programs are paying for her education.
    Public benefits.--Some of our most challenging clients are severely 
mentally ill persons who are arrested on less serious charges, but 
incarcerated pending trial, and who are without support systems. Their 
incarceration results in the cancellation of all their benefits (SSI, 
SSDI, Medicaid). Without their benefits, our clients lose access to 
affordable housing and some essential services. Because of the 
collaborations that the Offender Rehabilitation Division staff is 
developing with a number of agencies and with individual contract 
providers of mental health services, this situation is improving. More 
and more of our severely mentally ill clients are now able to obtain 
financial benefits, housing, intensive outpatient mental health 
services, and in the last year, we have had tremendous success helping 
these clients re-enter the community without re-offending.
Training
    Forensic science conference.--In addition to PDS's usual training 
efforts (e.g., annual Criminal Practice Institute and CPI Practice 
Manual, courses for court-appointed CJA attorneys and investigators), 
PDS coordinated and presented its first forensic science conference 
last summer using funds from a Department of Justice grant program. 
This free training program for defense attorneys included as presenters 
a number of nationally known forensic science experts. The success of 
this conference led the grantor to award funding to PDS for a similar 
conference to be held in May of this year.
    Investigator certification.--After adopting an investigator 
training proposal from PDS, the Superior Court implemented a 
requirement that all CJA criminal investigators be certified, receive 
initial training, pass a background check, and maintain their 
certification by attending PDS training. Senior PDS investigators and 
PDS staff attorneys prepare the training materials and coordinate 
training sessions on all aspects of criminal investigation to allow CJA 
investigators to maintain their certification. Over the past 2 years, 
PDS has held nine 20-hour training sessions and has certified 188 CJA 
investigators. PDS has scheduled two additional sessions in July and 
November 2004. This program is designed to ensure that now, and in the 
future, there are sufficient qualified investigators to assist CJA 
attorneys.
    Special education.--PDS's special education attorneys provided 
training in the fall to new Superior Court judges on special education 
issues relevant to children involved in the delinquency and neglect 
systems.
Administrative Accomplishments
    PDS has been able to institute additional improvements in its 
operational functions. Particularly now that PDS is a federally funded 
entity, we seek to reach a corresponding level of sophistication in the 
administration and execution of our responsibilities. Recent 
improvements made by PDS provide the necessary infrastructure to 
support our programs and our program staff and increase the potential 
for greater efficiency and effectiveness in carrying out PDS's mission.
    Case management system.--PDS has expanded internal access to its 
self-designed case tracking software. The program, ``Atticus,'' 
provides comprehensive case management functionality for PDS attorneys, 
staff, and management. Atticus now links the Trial, Investigations, and 
the Offender Rehabilitation Divisions to streamline referrals and 
processing for criminal and juvenile cases. Attorneys, investigators, 
and program developers can now report and track case events in a 
central electronic location, reducing or eliminating staff's reliance 
on less efficient means of communication, and ensuring that all staff 
who share responsibility for an individual case are kept fully informed 
on all case developments as needed.
    Strategic planning.--PDS has developed an Office of Management and 
Budget-approved 5-year strategic plan similar to the plans required of 
Federal executive agencies under the Government Performance and Results 
Act. PDS has also prepared a draft annual performance plan that has 
received preliminary approval from the Office of Management and Budget. 
PDS has begun to establish the baseline measures described in its plans 
in preparation for implementing the strategic plan in fiscal year 2005. 
PDS continues to make progress toward establishing the administrative 
infrastructure necessary to support the development of a performance-
based budget request.
    Appellate brief bank.--PDS has completed the establishment of an 
appellate brief bank that consists of briefs filed in the Appellate 
Division's cases over the past 25 years. This searchable, comprehensive 
brief bank now provides far easier, more effective access to previously 
completed research, enabling attorneys to avoid unnecessary duplication 
of effort.
    Each of the above reforms, cases, or projects has contributed to a 
better, more efficient criminal justice system, or has improved the 
quality of services provided to people who cannot afford an attorney in 
the District of Columbia justice system. These activities are all 
consistent with PDS's goal of efficiently providing representation by 
qualified attorneys to those PDS is dedicated to serve.
                               conclusion
    PDS's current increased focus on enhancing its administrative 
functions represents a further step toward better serving clients and 
toward better serving as a model defender organization. The right to a 
qualified attorney for people who cannot afford one can be read to 
include an expectation that representation will be provided to clients 
not only effectively, but also efficiently. As PDS has been in the 
forefront in meeting and exceeding the standards defining what it means 
to satisfy the requirements of the right to counsel, it can also be on 
the forefront in modeling excellent financial and management practices 
in support of that right.
    I respectfully request your support of this initiative, and I would 
like to thank the members of the subcommittee for your time and 
attention to these matters and for your support of our work to date. I 
would be happy to answer any questions the subcommittee members may 
have.

    Senator DeWine. Senator Landrieu.

                   PDS DIRECTOR SULLIVAN'S DEPARTURE

    Senator Landrieu. Mr. Sullivan, I want to say that we 
greeted the news of your leaving to go to Yale with very mixed 
emotions, because you have, you know, done an outstanding job, 
and your leadership has been really extraordinary, and your 
commitment very inspiring, but we wish you the best at Yale.
    I am hoping, though, that before you leave that you will--
and I am certain you will--give some indication of some others 
that could follow in the leadership that you have outlined 
because this is truly a very important agency for the District 
and for the Nation. And while we have made great progress, 
there is still some tremendous challenges, as you are aware.
    So I, for one, would be interested in your, you know, 
private comments along those lines. And as you leave, what 
three to four focuses should we give special attention to?
    Mr. Sullivan. Well, I thank you very much for your kind 
words first of all. It is bittersweet for me, as well. I was, 
in a sense, born and raised in this agency. I started as a 
staff attorney in this agency, and I bleed the colors of PDS.
    So it is with mixed emotions that I leave. I do look 
forward to my new opportunity, and I have promised to send many 
bright young law students to Washington, DC to be public 
defenders, so in that way I will still contribute.
    As to my successor, the search started in February, early 
last month, and applications are due by the 16th of March. And 
by the end of March, beginning of April, I anticipate that our 
board of trustees will have selected a new director.
    I happen to know that our very capable deputy director, 
Avis Buchanan, who is sitting behind me, is applying for the 
directorship, and I certainly wish her well in that endeavor.

            IMPORTANT ISSUES FACING THE DISTRICT OF COLUMBIA

    As to--from our perspective, as to the three or four most 
important issues facing the District, at least with respect to 
the criminal justice system, No. 1, I would speak about 
forensic issues. I have written in detail in my written 
statement, particularly about some of the science that we are 
becoming acquainted with with respect to identifications.
    We have seen in the DNA context that for an overwhelming 
majority of persons who have been convicted and incarcerated, 
sometimes for years, but DNA evidence has exonerated them, the 
principal basis of the conviction was a false identification. 
And in almost every time, it was nothing vindictive about the 
identification. It was an honest mistake.
    Over the past several years, psychologists and professors 
in psychology departments in universities across the country 
have been looking into this issue of identification and, 
frankly, we have learned a lot about how to do identifications, 
the best way that police should present lineups, and a whole 
host of issues surrounding how we can better our identification 
processes.
    Some States, New Jersey for example, have adopted sweeping 
changes in their identification procedures. And we have 
encouraged the District of Columbia to do the same. We have 
presented the Court with some of the social science findings 
about identifications.
    And, indeed, I have been in a room with--filled with 
lawyers where most of the room picked the wrong person. There 
is a video clip, and it would sort of replicate a crime and 
then, you know, show different pictures. We have learned, for 
example, that identification is a relational concept. That is 
to say, if you show somebody six pictures, the mind tends to 
work in a way that you pick the one that looks most like who 
the perpetrator was. Whereas, if you show pictures in sequence, 
then that is a much better way to get at the actual 
perpetrator.
    So at any rate, I do not want to bore you two with a litany 
of the problems with our current identification system, but it 
has resulted in--and we know because of DNA that it has 
resulted in false convictions, and that is something that we 
are working to eradicate.
    We have begun in the last couple of years a forensic 
practice group at the agency, where we are looking into not 
only that, but DNA sciences, mitochondrial DNA is becoming a 
much more important aspect of the criminal justice system; the 
metallurgy science, with respect to bullets and that sort of 
thing, these are all very important issues. So that is one.
    Second, I would say jury pool issues. There are problems in 
the District with respect to a too narrow jury pool. We are 
working with the Court to see what we can do to expand the jury 
pool so that all citizens can, as is consistent with their due 
process rights and the Constitution, participate on the juries 
in the District of Columbia.
    So those are two sort of overarching issues to give you an 
idea of some of the things we are working on.
    Senator Landrieu. Very good. Very helpful. Thank you.

                       IN RE JERRY M. LITIGATION

    Senator DeWine. Good. Mr. Sullivan, your agency is suing 
the District on behalf of children in the juvenile justice 
system. And you cite years and years of the system failing 
these kids.
    Your lawyers told a D.C. Superior Court judge last week 
that the court-appointed receiver should take over the Youth 
Services Administration, to operate the agency and report to 
the Court every 2 months about changes and improvements. I 
wonder if you could give us some information, more information 
about this suit and what problems you see with the City's Youth 
Services Administration?
    Mr. Sullivan. The problems frankly, Mr. Chairman, are 
legion. It has been nearly two decades of not complying with 
even the most basic requirements for the health and safety of 
the most needy children in the District.
    One example, I think, will illustrate just the mind-set of 
this particular agency with respect to the children. Recently, 
we were in the hearings, my agency was in the hearings in front 
of Judge Dixon, and one of the complaints that we made in our 
receivership application was that children had to stuff 
towels--and this is at Oak Hill, the juvenile detention 
center--towels in holes in their rooms to keep rats from coming 
in at night.
    The question the District posed to the expert who produced 
this finding was that, ``Well, sir, could it be that these are 
not rats, but they are very large mice,'' as if that in some 
way justifies the presence of rodents in the children's rooms.
    I mean, and that is just one example that is just 
indicative of some of the problems, but the report from the 
inspector general, I think, in many ways lays out some of the 
most critical shortcomings of the Youth Services 
Administration. For example, numerous residents who tested 
negative for drugs when they went into this locked, secure 
facility tested positive for marijuana and PCP once they were 
in there.
    Senator DeWine. That is unbelievable, is it not?
    Mr. Sullivan. And unacceptable.
    Senator DeWine. And it is shocking.
    Mr. Sullivan. And unacceptable. And the inspector general 
postulated that the guards were the source of the illegal 
contraband.
    In violation of every fire prevention and safety 
requirement imaginable, locks on the housing unit doors are 
manual and cannot provide safety in the event of fire. Oak Hill 
did not have a trained health and safety officer there.
    Nearly 100 percent of the youth at Oak Hill are--test 
positive for drugs. It is--I mean, the list goes on and on and 
on. And it has been like this for nearly two decades.
    Senator DeWine. Well, that is what is shocking, is that it 
has been that way for two decades. And so Senator Landrieu and 
I are, you know, are going to hold a hearing. And it may take 
more than one hearing, frankly, to review the District's 
juvenile justice system.
    We want to hear specifically, you know, how the system is 
broken, why the City has been unable to fix this problem in 
almost two decades. You know, when you hear these--what the 
facts are, it just, you know, has to trouble anybody. You know, 
I am troubled to note that children in the city as young as 10 
who are merely truants or victims of a failed foster system are 
being incarcerated with serious teenage offenders. I mean, that 
just has to trouble anyone, you know. You know, that is not 
supposed to take place anyplace in this country today. We 
passed that a long, long time ago, I thought, in this country.
    You know, we hear that system allowed a 12-year-old boy to 
be sexually assaulted by nine other boys while incarcerated at 
the City's detention facility. We have learned that drugs are 
readily available as you point out in the facility. Where are 
they coming from? You know, we can only surmise or guess.
    So we are going to hold a hearing. Senator Landrieu and I 
are going to do that. And if it takes more than one hearing, we 
are going to bring in the people who know about this, and we 
are going to talk to them, and we are going to try to get to 
the bottom of this. So we appreciate your diligence on this, 
and what the lawyers who work with you have done in this area. 
We congratulate you for your diligence in this area.
    Senator Landrieu, anything else?
    Senator Landrieu. No.
    Senator DeWine. Should --

                        WASHINGTON POST ARTICLE

    Senator Landrieu. Well, I do, actually, want to submit for 
the record, and maybe you can respond to this briefly and in 
writing. There was a case--and I know we are short on time, Mr. 
Chairman, but there is a case pending--if the staff will help 
me find the news article in The Post a couple of days ago. Here 
it is. The case of lengthy delays, Ida and Charles Chase were 
arrested in the slaying of Julius Alderman during an apparent 
robbery. This was 6 years ago.
    I understand that subsequently Mr. Chase has died of a 
heart attack, but Ida is still in jail, 6 years waiting for the 
trial. And every time we try to go to trial, something happens. 
Can you just comment about this, so that I can----
    Mr. Sullivan. Yes, absolutely.
    Senator Landrieu. Briefly, and then perhaps at--more at 
length in writing?
    Mr. Sullivan. Yes, absolutely. I will comment very briefly 
to the degree I can. I, obviously, cannot divulge any 
confidential information.
    However, I can say that Ms. Chase maintains her innocence 
and is anxiously anticipating her trial date. It has been too 
long. There have been delays in this trial. She wants to go to 
trial, and she wants to prove her innocence, and the attorneys 
on the case are committed to doing that.
    I will say just parenthetically, and I do not--unless 
obviously you are inclined, I do not want to get into a back 
and forth. If the predicate of the question has to do with the 
article, that is, in my view, one of the most irresponsible 
pieces of journalism that I have ever experienced and certainly 
beneath the standards of a major newspaper. It is replete with 
omissions and misstatements and allows for inferences that are 
factually false.
    For example, I will just take the very last continuance. 
They make a lot about that in the paper. They say the defense 
asked for more time to review evidence. Well, what happened was 
that a month before trial, the FBI indicated to us that they 
found two additional hair samples that had not been disclosed 
before and had not been tested.
    We said, ``Well, we need to test those.'' One of them was 
on a piece of duct tape, which is very important to the facts 
of the case, which I will not go into.
    We said, ``We need to test it. We need a brief time to get 
it tested. It will take a few weeks from the lab, and we are 
ready to go.''
    The Court granted it. The prosecutor did not oppose it. The 
prosecutor said, ``I am tied up from January to July. So it is 
in July.''
    So the article says, ``Oh, defense asked for a pass. There 
is a seven-month delay.'' But it does not mention that, ``Well, 
the reason for this delay, for example, is that there is a--the 
prosecutor was not available for seven months.''
    There was one other huge omission. The article indicated 
that Judge Bowers said that there will be no further 
continuances and granted two more, but simply did not mention 
that what happened was that the D.C. Council passed the 
Innocence Protection Act, and our client, with advice of 
counsel, asserted her rights under the Innocence Protection Act 
to pre-trial testing of biological material, recognizing that 
that would delay the start date. But there was material that 
was back in, oh, boy, April--somewhere around April of 2002, 
the IPA was passed.
    All of the biological material was supposed to be disclosed 
and, you know, we still did not get those two hairs until a 
couple of months ago. So there is a lot that happened in that 
case. I do agree that it was--it is too long. We are anxious to 
get to trial. But for the article to lay the blame simply in 
the defense attorney's lap is wrong. But we are ready to go, 
and we think that it is going to be a good result.
    Senator Landrieu. And I appreciate it. And you have made--
you know, you have made very direct and excellent and 
clarifying comments.

                     ADDITIONAL COMMITTEE QUESTIONS

    But I would just say to the Chairman that we do have a 
challenge on our hand to create a system where neither those 
that are accused of a crime have to wait 6 years in jail for 
their day in court, nor those victims that have suffered 
terribly have to wait that long. So let us get about the work, 
Mr. Chairman, and thank you very much.
    [The following questions were not asked at the hearing, but 
were submitted to the Service for response subsequent to the 
hearing:]
            Questions Submitted by Senator Mary L. Landrieu
                  re-arrest rate and parole revocation
    Question. Would you please submit to the Committee a comparison of 
the re-arrest rates and parole revocation hearings in the District to 
other jurisdictions of similar size?
    Answer. Statistics comparing the District's parole revocation rates 
to those of cities of a similar size are difficult to obtain, in part 
because there is no longer a local paroling authority that maintains 
such statistics for D.C. parolees. As of August 5, 1998, through the 
implementation of the Revitalization Act,\1\ the U.S. Parole Commission 
assumed responsibility for making parole decisions for D.C. Code 
offenders. The Commission estimates that slightly fewer than 50 percent 
of D.C. parolees return as parole violators. However, most of these 
``violators'' are charged not with new crimes, but with minor 
administrative violations such as failing to meet with their parole 
officer, failing to obtain steady employment, or failing to overcome 
their drug addiction.
---------------------------------------------------------------------------
    \1\ National Capital Revitalization and Self-Government Improvement 
Act of 1997, Public Law 105-33.
---------------------------------------------------------------------------
    Last year, parole boards nationwide conducted 143,154 violation 
hearings with California, New York, and Texas conducting 50 percent of 
them.\2\ In the District of Columbia, the Public Defender Service 
represented 1,349 persons who were facing revocation of their parole 
before the U.S. Parole Commission. Most of these individuals had not 
committed new crimes but had failed to follow a condition of parole 
release.
---------------------------------------------------------------------------
    \2\ Association of Paroling Authorities International, Parole Board 
Survey 2002.
---------------------------------------------------------------------------
    There has been a 652 percent increase in the number of parole 
violators, according to an analysis of the U.S. Bureau of Justice 
Statistics (BJS) data by the nonpartisan Urban Institute.\3\ In fiscal 
year 2002, 19 State paroling authorities reported an increase in 
resources in order to keep up with the demands created by the volume of 
revocation hearings.\4\ Twelve States had double digit increases in 
their parole population in 2002. Four States had a parole population 
increase of 20 percent or more: North Dakota (27 percent), New Mexico 
(26 percent), Kentucky (23 percent), and Oklahoma (21 percent).\5\ 
Nationally, this was the largest increase in the parole population 
since 1995.
---------------------------------------------------------------------------
    \3\ See, ``7-Fold Jump in Parolees Sent Back to Prison Since 1980, 
1 in 3 State Prison Admissions is Result of Parole Violation,'' Urban 
Institute, November 2, 2002.
    \4\ Association of Paroling Authorities International, Parole 
Board, Survey 2002.
    \5\ Bureau of Justice Statistics Bulletin, ``Probation and Parole 
in the United States, 2002,'' August 2003, NCJ 201135.
---------------------------------------------------------------------------
    The lack of community resources is an overwhelming stumbling block 
to successful re-entry. Many parolees lack the educational or 
vocational skills necessary to become productive members of society. A 
parolee who has lost everything that he has accomplished due to 
technical parole violations must start anew upon his return to the 
community. According to a report from the Association of Paroling 
Authorities International, housing is the number one issue facing 
parolees upon their return to the community.\6\ Other issues they face 
include a lack of available, licensed, substance abuse treatment and 
vocational/employment resources and services. The chronically ill, the 
elderly, and women particularly face insurmountable obstacles.
---------------------------------------------------------------------------
    \6\ Association of Paroling Authorities International, Parole Board 
Survey, 2002.
---------------------------------------------------------------------------
    We echo the sentiments of Oakland Mayor Jerry Brown: ``The 
revolving door is failing. They aren't getting the marketable skills 
and literacy they need in prison. It's a big huge problem.'' \7\ Parole 
violators leave the prison walls but they cannot leave the stigma 
associated with incarceration. A study on public attitudes toward 
prisoner reentry revealed that most respondents were aware that 
prisoners face daunting obstacles in returning to the community and 
establishing a noncriminal lifestyle. Most admitted, however, that they 
had not given much thought to prisoner reentry.\8\ Many persons leave 
prison with no particular place to go and very little support or 
monitoring.
---------------------------------------------------------------------------
    \7\ See, ``Parole Violators Crowd California Prisons,'' Associated 
Press, Newsday.com, March 8, 2004.
    \8\ See, ``The Revolving Door: Exploring Public Attitudes Toward 
Prisoner Reentry,'' March 2002, Urban Institute.
---------------------------------------------------------------------------
    One of the goals of PDS's Community Defender Program is to educate 
ex-offenders, including those on parole, about their legal rights and 
responsibilities following their release on parole. To that end, the 
bilingual Community Re-entry Program Coordinator regularly makes 
presentations at offender orientations hosted by the Court Services and 
Offender Supervision Agency, particularly those targeted at Spanish-
speaking clients. The CRP has also presented educational sessions to 
other groups, including women at the Washington Transitional Center who 
are parolees. Topics covered in the educational presentations include 
housing, employment, family law, public benefits, sex offender 
registration, DNA testing, immigration, and community resources that 
are available to ex-offenders and parolees. The CRP, along with the 
Parole Division, has also developed an outline covering the same 
topics, which will be presented at the D.C. Jail to prisoners pending 
release.
               dna sample collection response initiative
    Question. With the increase in cases involving DNA, have you found, 
informally, that fewer convictions are overturned on appeal?
    Answer. There are two reasons why the advent of DNA technology is 
not likely to result in fewer cases being overturned on appeal. First, 
very few cases involve biological evidence and, second, quality control 
issues affecting the reliability of DNA evidence are likely to generate 
more rather than less appellate litigation for the foreseeable future.
    To date, there have been relatively few DNA cases in the District 
of Columbia, and potential DNA cases represent a very small sample of 
the cases in the criminal justice system. That is, only a small 
fraction of criminal cases present situations where DNA can be used to 
exonerate someone (because biological evidence is often not present or 
not preserved), and in even fewer cases can DNA inculpate someone 
(because it is more difficult to show a ``match'' than an exoneration 
when, for example, the sample is degraded--allowing for minimal 
analysis, or the sample is a mixed sample--a sample in which more than 
one person's DNA is present).
    In the District of Columbia, there has been and will continue to be 
considerable litigation concerning the reliability of DNA results as 
the technology changes and as forensic labs are subject to lower 
standards than, for example, medical labs. Recent examples of problems 
in quality assurance at DNA labs include the scandal involving a DNA 
lab in Houston where results were falsified and contamination was 
rampant, and the termination of an FBI analyst after it was revealed 
that for 2 years, she had failed to run negative controls while 
analyzing samples.
    Thus, while cases involving DNA evidence where there has not been a 
challenge to the reliability of the results may make appellate courts 
more confident in the results at trial, examples of numerous DNA 
exonerations actually inform us that mistakes are likely being made in 
cases where no biological evidence was left at the scene. This should, 
if anything, make appellate courts more rigorous in their review, 
although as a practical matter we have not noticed much of a change. 
The D.C. Council did, however, pass the non-DNA portion of the 
Innocence Protection Act, D.C. Code  22-4135, in 2002. The express 
purpose of that provision was to provide closer review of innocence in 
non-DNA cases, on the theory that at least as many mistakes were being 
made in those cases as were made in the cases where DNA exonerations 
had demonstrated trial mistakes were made. It is too early to tell 
whether this provision will result in closer judicial scrutiny of 
innocence.
    Question. Or, is there anecdotal evidence that the court and public 
are more willing to convict a defendant if scientific evidence is 
present?
    Answer. PDS does have polling results of potential jurors in a 
specific case that show that jurors place extraordinarily high credence 
in scientific evidence and in DNA evidence in particular. In the view 
of most potential jurors, DNA evidence is by far the most reliable form 
of evidence, and approximately one out of three jurors believes that it 
``can never be wrong.''
    Our polling results also show that jurors begin trials with very 
little understanding of DNA evidence, and particularly its variety and 
limitations. For example, a little under half of the jurors begin the 
trial not understanding that different types of DNA evidence exist 
(nuclear and mitochondrial). Even when jurors are told that different 
types exist, around half do not understand that nuclear DNA evidence is 
more discriminating than mitochondrial DNA evidence.
    Our polling data also showed that jurors place considerable weight 
on eyewitness identification evidence and are not familiar with the 
growing body of science delineating the weaknesses associated with 
eyewitness identification. Currently, however, efforts to present 
eyewitness expert testimony are usually denied by trial judges.
    PDS is actively engaged in training to improve defense attorneys' 
ability to explain DNA evidence to jurors, litigation to improve the 
quality of DNA evidence that is admitted in criminal trials in the 
District of Columbia, and litigation to provide jurors with expert 
information concerning eyewitness identifications.
        representation of juveniles with special education needs
    Question. Does PDS handle special education administrative cases or 
those that go to court?
    Answer. Generally, PDS handles special education cases at the D.C. 
public schools administrative proceedings level, while concurrently 
serving as the clients' education advocates in delinquency cases in the 
Superior Court of the District of Columbia.
    Special education administrative hearing decisions, of course, are 
appealed to the United States District Court. Because PDS has an 
excellent record in obtaining favorable outcomes for its clients in 
special education administrative proceedings, PDS attorneys have not 
had to pursue client claims in the U.S. District Court thus far, except 
on one occasion; J.C., et al. v. Vance, et al., Civil Action No. 03-CV-
971) (D.D.C.) filed on May 2, 2003. The major issue in the J.C. case is 
the District of Columbia's failure to provide federally mandated 
special education services to eligible youth incarcerated at the D.C. 
Jail.
    Question. Is PDS part of the court ordered attorneys' fees in 
special education cases? If so, how much has PDS collected?
    Answer. PDS does not apply for or otherwise receive attorneys' fees 
in special education cases.
    Question. What role does PDS play in determining what assessment 
program a child receives or which business or other group performs that 
assessment?
    Answer. The D.C. Public Schools system assumes responsibility for 
determining what evaluations and assessments should be performed for 
children and for having them conducted by either D.C. Public School 
evaluators or independent specialists.
    In those instances in which the D.C. Public Schools either fails to 
perform evaluations and make educational assessments--or fails to 
perform appropriate, complete, or necessary evaluations and 
assessments--PDS will identify and seek independent assessments and 
evaluations from highly qualified specialists and experts in the fields 
and in disciplines associated with the disabilities of the child who is 
to be evaluated.
    Question. Does PDS play a part in determining what special 
education program or school a child is sent to?
    Answer. As the parent's attorney in special education 
administrative proceedings and as the child's education attorney in the 
related Superior Court delinquency proceedings, PDS may make 
recommendations and advocate for or against particular special 
education program placements, depending on the needs of the child. PDS 
does not itself decide the child's placement.
             creation of a mental health treatment program
    Question. I understand the OPTIONS program was created to reduce 
the number of mentally ill offenders who are incarcerated or 
institutionalized because no treatment is available.
    Would you highlight the effectiveness of the program and the 
services it provides to the District of Columbia that were non-existent 
before now?
    Answer. OPTIONS was created as a diversion program to divert 
mentally ill offenders charged with misdemeanors away from the jail or 
another onerous condition of release to a more therapeutic environment. 
This assures the court that the risk of flight is minimal and the 
mental health issues are being adequately addressed. The program has 
been very effective in that many people have been connected or 
reconnected to the mental health system and are getting the appropriate 
treatment. The OPTIONS program is linked with Community Connections, a 
private core service agency that affords a myriad of services and 
contracts with the Department of Mental Health. An OPTIONS client is 
given a case manager who not only services the client's mental health 
needs, but also serves as a court liaison--ensuring that clients are 
present at their court hearings and providing information to the court 
about the client's progress. The case management provided is aggressive 
and comprehensive. OPTIONS clients have access to psychiatrists to 
prescribe medication and, with the help of a treatment team, clients 
have individually tailored treatment regimens designed to address their 
individual needs. Therapeutic programs include, but are not limited to, 
day programs that provide substance abuse counseling, group therapy 
regarding mental health issues, forensic groups designed to address the 
unique needs of forensic clients, work training programs, and 
assistance with benefits and housing. Although acceptance into a core 
service agency is available to any D.C. resident with a mental illness, 
the OPTIONS program was the first program to target recent offenders to 
connect them with services and housing and to help them successfully 
navigate through the criminal justice system. Approximately 200 people 
a year have been serviced through the OPTIONS program since its 
inception in 2001. Examples of great success stories include an 
individual who successfully completed the program, received a 
probationary sentence, and got her own house through the Home First 
program; she is still stable and doing well.

                          SUBCOMMITTEE RECESS

    Senator DeWine. Well, Mr. Sullivan, we wish you well, and 
we thank you for your good service very much.
    Mr. Sullivan. Thank you very much.
    Senator DeWine. Thank you.
    [Whereupon, at 11:52 a.m., Wednesday, March 3, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
